<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 2]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 111-701, Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 2

                                SEAPOWER

                               ----------                              

                              MAY 6, 2010


         Printed for the use of the Committee on Armed Services






                                                  S. Hrg. 111-701 Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

                                SEAPOWER

                               __________

                              MAY 6, 2010

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/


                  U.S. GOVERNMENT PRINTING OFFICE
62-156 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                        Subcommittee on Seapower

                   JACK REED, Rhode Island, Chairman

JOSEPH I. LIEBERMAN, Connecticut     ROGER F. WICKER, Mississippi
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 GEORGE S. LeMIEUX, Florida
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
KAY R. HAGAN, North Carolina         SUSAN M. COLLINS, Maine
EDWARD E. KAUFMAN, Delaware

                                  (ii)







                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                       Navy Shipbuilding Programs
                              may 6, 2010

                                                                   Page

Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition; Accompanied by VADM 
  John T. Blake, USN, Deputy Chief of Naval Operations for 
  Integration of Capabilities and Resources; Lt. Gen. George J. 
  Flynn, USMC, Deputy Commandant for Combat Development and 
  Integration....................................................     6

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                         THURSDAY, MAY 6, 2010

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                       NAVY SHIPBUILDING PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Webb, Hagan, 
Sessions, Wicker, LeMieux, and Collins.
    Majority staff members present: Creighton Greene, 
professional staff member; and Jason W. Maroney, counsel.
    Minority staff members present: Pablo E. Carrillo, minority 
investigative counsel; David M. Morriss, minority counsel; and 
Christopher J. Paul, professional staff member.
    Staff assistants present: Kevin A. Cronin, Hannah I. Lloyd, 
and Brian F. Sebold.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Nick Ikeda, assistant to Senator 
Akaka; Greta Lundeberg, assistant to Senator Bill Nelson; 
Juliet M. Beyler and Gordon I. Peterson, assistants to Senator 
Webb; Perrin Cooke and Roger Pena, assistants to Senator Hagan; 
Sandra Luff, assistant to Senator Sessions; Erskine W. Wells 
III, assistant to Senator Wicker; Brian Walsh, assistant to 
Senator LeMieux; and Ryan Kaldahl, assistant to Senator 
Collins.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order and welcome 
our witnesses--Secretary Stackley, Vice Admiral John Blake, and 
Lieutenant General Flynn--to the subcommittee this morning.
    I want to also recognize my colleague and the ranking 
member, Senator Wicker, and my colleague and chairman and 
ranking member of so many committees, Senator Collins.
    Thank you all.
    We are obviously, gentlemen, grateful for your service to 
the Nation and to the Navy and the Marine Corps. We want you to 
convey our appreciation to the men and women of those Services, 
and their families, who serve so valiantly today and across the 
globe. So, thank you, and thank them.
    This is the first hearing I've held as chairman of the 
Seapower Subcommittee, and I particularly want to welcome 
Senator Wicker; Roger and I serve together as chairman and 
ranking member. He and his staff have done extraordinarily good 
work. I appreciate and look forward to continuing our efforts 
together.
    Since the last time the subcommittee met, the Department of 
Defense (DOD) has completed the 2009 Quadrennial Defense Review 
(QDR), and released an updated 30-year shipbuilding plan. We 
look forward to the witnesses' assessment of the QDR and the 
30-year shipbuilding plan.
    We'd like to hear how these documents have driven the 
Services' fiscal year 2011 budget request, and how they support 
and describe this year's budgets decisions.
    The Navy continues to be faced with a number of critical 
issues as it tries to balance its modernization needs and 
procurement needs against the cost of current operations. The 
shipbuilding budget remains at a level where it will be 
difficult, at best, to field the Navy we want and, indeed, even 
the Navy that we need.
    We were very pleased to see the Department's decision to 
continue budgeting for two Virginia-class submarines per year. 
We believe that, when the Navy and contract team have been 
achieving effects like driving down costs and reducing 
construction-span times, it should be a model for other 
programs in the shipbuilding area.
    We support the Navy's inclusion of the cost of the Ohio 
replacement SSBN in its budget documents. SSBNs will remain a 
vital leg of the nuclear triad for the foreseeable future.
    These two decisions, building two attack boats per year and 
starting the Ohio replacement program, will yield significant 
stability to the Nation's submarine industrial base and provide 
the Navy with a more than capable submarine fleet for many 
years to come.
    Unfortunately, the picture isn't as rosy everywhere. We 
continue to have significant concerns in the shipbuilding area. 
The most notable area of concern remains in surface combatant. 
The Navy has made strides in the Littoral Combat Ship (LCS) 
program. Since last year, the Navy has decided upon a winner-
take-all acquisition strategy to procure the two fiscal year 
2010 vessels, with fixed-price options for two ships per year 
for the next 4 years. However, we remain concerned about the 
ability of the competing shipyards to produce these ships on 
time and under the cost cap.
    We look forward to receiving more analysis during the 
Navy's decisionmaking on large surface combatants. The restart 
of the DDG-51 program, following the truncation of the DDG-1000 
program, is now underway. Although the Navy has said that the 
primary reason for making this change is requirements, we know 
that the Navy was also concerned about the cost of the DDG-
1000. We remain concerned about the cost of the DDG-51s, and 
intend to keep a close eye on this program, as well as DDG-
1000.
    As the Navy firms up its requirements and its understanding 
of its needs for fiscal year 2016 and out-year large surface 
combatants, we look forward to your testimony providing the 
strategic linkage of threats, requirements, and resources.
    The subcommittee notes the Navy's desire to utilize the 
DDG-51 hull form with the Air and Missile Defense Radar (AMDR) 
to fulfill these requirements. We are concerned with the amount 
of redesign for the DDG-51 that will be needed to accommodate 
the AMDR. We have even greater concern that the radar may not 
be fully developed and tested in time to meet the construction 
schedule for the first fiscal year 2016 ships.
    Since this ship appears to be significantly different from 
even the restarted DDG-51, we look forward to hearing how the 
Department plans to use full and open competition, to the 
maximum extent practicable, for both the ship and the major 
systems on the ship in order to keep costs down while 
maximizing capabilities.
    Specifically, we expect the Navy, per longstanding 
requirements of the subcommittee, to procure ships that utilize 
open architecture.
    These are significant challenges, and we fear they have the 
potential to add great deals of instability to the Navy 
shipbuilding budget, even in the near term. If the Department 
of the Navy is unable to control its acquisition programs and 
drive out cost growth, the Navy will not be able to afford the 
fleet it needs to meet the requirements of the QDR.
    The QDR heavily emphasized the need to overcome anti-access 
capabilities and strategies that might be employed by potential 
adversaries. It therefore approved continuing the Expeditionary 
Fighting Vehicle (EFV). The EFV attempts to fulfill the Marine 
Corps' requirement to swim ashore from 20 to 30 miles at sea in 
armored vehicles and execute an amphibious landing. 
Unfortunately, the EFV program has been another poster child 
for troubled programs, with continuing cost, schedule, and 
performance issues. While we understand the requirement, we 
look forward to hearing how the Marine Corps plans to correct 
the problems in the program and deliver this needed capability.
    In concert with this testimony on the Marine Corps' 
requirements for amphibious landing capabilities, we would like 
to hear from the witnesses this afternoon how the Department 
intends to meet the Marine Corps' naval surface fire support 
needs, particularly given the truncation of the DDG-1000 
program that was intended to meet those needs.
    We also welcome further information on our rate of 
production of big-deck amphibious ships. At our last hearing, 
Chairman Levin noted that the Department of the Navy has had 
trouble defining the requirements for the Maritime 
Prepositioning Force-Future (MPF(F)) program. Since that time, 
the Navy has shifted away from a MPF(F) optimize for forceful 
entry operations, towards a new Mobile Landing Platform (MLP) 
produced and procured to enhance maritime prepositioning 
squadron capability.
    We'd like to hear the witnesses discuss this change and its 
impact on the Navy's ability to achieve its various missions, 
including humanitarian and disaster relief.
    Finally, I'd like to note Secretary Gates' comments at the 
Air-Sea-Space Conference this week, that we must, in his words, 
``be willing to reexamine and question basic assumptions, in 
light of evolving technologies, new threats, and budget 
realities.'' This subcommittee will accept his challenge. The 
world and technology are changing rapidly, and the Navy must 
adapt to those challenges.
    We will continue to work with the Navy and Marine Corps to 
ensure that our sailors and marines have not only the best 
equipment, but also the right equipment to succeed in today's 
challenging environments. As you can see, there are some bright 
spots, but there are significant areas of concern.
    We look forward to hearing your testimony today and dealing 
with the other issues that face the Department of the Navy.
    Now I'd like to recognize Senator Wicker.
    Roger?

              STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. Thank you, Mr. Chairman. I appreciate your 
kind words of welcome. I look forward to this hearing.
    We have an outstanding panel, and I think they are to be 
commended for their selfless service to the Nation. I think 
we'll have a very interesting hearing.
    The chair has raised a number of issues, in his opening 
statement, that I agree need to be debated. The fiscal year 
2011 shipbuilding budget funds nine ships, including two 
Virginia-class submarines, two DDG-51-class destroyers, two 
LCSs, one LHA amphibious assault ship, an MLP, and a third 
joint high-speed vessel (JHSV), at a total cost of $13.7 
billion in new ship construction.
    Against the backdrop of the President's budget request for 
fiscal year 2011, Secretary Gates' speech, that the chair 
referred to, before the Navy League Symposium on Monday of this 
week, makes our hearing today on the Navy's shipbuilding 
programs particularly timely. Secretary Gates' public comments 
force us to review longstanding assumptions about how our Navy 
and Marine Corps will project power globally and whether our 
long-range shipbuilding plans and budget are consistent with 
these needs, and adequate to meet them.
    Given the President's budget before us, I find some of 
Secretary Gates' comments confusing. I hope our witnesses can 
help clarify some crucial issues. For example, Secretary Gates 
urged the Navy to revisit its plans to keep 11 carrier strike 
groups for the next 3 decades. He questioned what kind of 
amphibious launch capability we really need to deal with the 
most likely threat scenarios. How do these comments square with 
the force structure requirements laid out in the QDR and the 
30-year shipbuilding plan recently submitted to Congress, which 
call for 11 CVNs and about 33 amphibious ships?
    Some of Secretary Gates' comments raise questions, in terms 
of the budget for the coming year, and even more so for out-
years. In his speech, Secretary Gates cautioned that he doesn't 
foresee any significant top-line increases in the shipbuilding 
budget, beyond current assumptions. But, here are the facts: 
right now, we spend $15.8 billion on ship construction. 
According to the Navy's 30-year shipbuilding plan, we need to 
spend $17.9 billion per year to sustain current submarine and 
surface ship construction levels. So, what does this mean for 
the future of the Navy, if the Secretary of Defense does not 
think additional funds will be available to meet the Navy's own 
plans?
    For example, the Navy's 30-year shipbuilding plan calls for 
replacement of 14 Ohio-class ballistic missile submarines and 
the multiyear procurement of 2 Virginia-class attack submarines 
per year. Because the ballistic missile submarines cost over 
$6.5 billion each, and the Virginia-class submarines cost 
around $2 billion each, these expenditures, alone, consume over 
75 percent of the current shipbuilding budget. So, unless the 
Navy intends to increase its shipbuilding top line during this 
period, overall surface ship production would decrease to only 
two surface ships per year. Taking this into consideration, is 
a 313-battleship force merely lipservice?
    On the LHA amphibious assault ship program, I remain 
concerned about the aviation and surface lift requirements. In 
my view, both the F-35 Joint Strike Fighter and the V-22 Osprey 
programs present unresolved questions, in terms of their 
operational suitability on L-class ships.
    For future LHA vessels, why didn't the Navy invest in a 
more incremental acquisition strategy, which would have us 
integrate larger hangar space into that ship as the aircraft 
programs that require such space ripen, while we preserve a 
well-deck capability for surface assault?
    With the many modern advances incorporated into LHD-8, I 
hoped a common hull design and maturity would create stability 
in the big deck amphibs. However, LHA-6 and LHA-7 will both be 
radically different from LHD-8. I understand there are 
discussions about changing the design of the follow-on ship to 
the LHA-7. These changes impact our ability to be as efficient 
with every dollar as we possibly can.
    With DOD pursuing a 33-ship amphibious fleet, as blessed by 
the QDR, rather than the Marine Corps' original requirement for 
38 amphibious ships, I understand that the Department of the 
Navy is accepting risks. So, we need to get this right. I hope 
our witnesses can help us with this issue, and identify the 
specifics of these acceptable risks.
    I would also like to hear from the Marine Corps on updates 
with the long-delayed and challenged EFV, which the chair 
mentioned, especially in light of Secretary Gates' comments on 
Monday.
    From the Navy, I'd like to know how they intend to go 
forward with the third DDG-1000 destroyer, now that we've been 
notified of critical cost growth in that program.
    In addition, I look forward to hearing from the witnesses 
about the LCS competition and the status of the electromagnetic 
aircraft launch system, which would be deployed on the USS 
Gerald Ford.
    So, we have many issues to discuss today, and I look 
forward to the testimony of our witnesses.
    Again, thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Wicker.
    We've been joined by Senator Sessions and Senator LeMieux.
    If someone wants to make a brief comment, I'll entertain 
it, but I think the normal procedure is to go to the witnesses 
and accept their statements for the record.
    Thank you very much.
    Secretary Stackley.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; ACCOMPANIED BY 
 VADM JOHN T. BLAKE, USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
 INTEGRATION OF CAPABILITIES AND RESOURCES; LT. GEN. GEORGE J. 
   FLYNN, USMC, DEPUTY COMMANDANT FOR COMBAT DEVELOPMENT AND 
                          INTEGRATION

    Mr. Stackley. Yes, sir.
    Mr. Chairman, Senator Wicker, distinguished members of the 
Seapower Subcommittee, thank you for the opportunity to appear 
before you today to discuss Navy shipbuilding.
    More importantly, thank you for the steadfast support for 
the Navy and Marine Corps program, and, of course, your 
constant support for our sailors and marines.
    With the permission of the committee, I'd like to provide a 
brief statement and submit the more formal statement for the 
record.
    Senator Reed. You have unanimous consent.
    Mr. Stackley. Thank you.
    Today we are a battle force of 286 ships supporting global 
operations with, arguably, greater reach and greater command of 
the seas than any navy at any point in history. While we take 
pride in knowing that our ships, aircraft, and weapon systems 
are unmatched at sea, as formidable as our technology may be, 
it is the skill, dedication, and resourcefulness of our sailors 
and marines that gives us our greatest edge. It's our 
responsibility to place in their hands the tools that they need 
to win the fight we're in and to return home safe. It's our 
responsibility to provide the capabilities and capacities to 
win the next fight.
    The Chief of Naval Operations (CNO) and the Commandant of 
the Marine Corps have outlined those capabilities in what has 
been referred to as the 313-ship Navy. To this end, the fiscal 
year 2011 budget request includes funding for nine ships, a 
modest, but important, step towards meeting the CNO's and 
Commandant's requirements.
    This year, we increased Virginia-class submarine 
procurement to two boats per year. In 2005, then CNO Mullen 
challenged the Virginia program to put the Navy in a position 
to be able to buy two boats for $4 billion in 2012. This year, 
with Congress's support, ``two for four in 2012'' has become 
``two for four in 2011.''
    In 2011 we increased DDG-51 production to two ships, which, 
alongside the Aegis modernization program, adds both capability 
and capacity to our fleet's sea-based missile defense.
    With the competitive down-select to a single design for the 
LCS program later this year, our 2011 budget request sustains 
an efficient build rate of two LCSs per year for the winning 
shipyard. Congress's support for this revised acquisition 
strategy, which includes opening competition for a second 
builder in 2012, has been critical to the Navy's efforts to 
bring much-needed stability and improved affordability for this 
program.
    With this year's request, we increase our amphibious lift 
capability with procurement of an LHA-6 amphibious assault ship 
and our logistics lift capability with procurement of an MLP 
and a JHSV. Additionally, a second JHSV is funded in Other 
Procurement Army, for a total of 10 ships in fiscal year 2011.
    As we look to the near term, the Navy shipbuilding plan 
averages 10 ships per year, while balancing requirements, 
affordability, and industrial-based considerations in the next 
decade. Specifically, we have placed aircraft carrier 
procurement on a 5-year cycle, which will ensure our ability to 
sustain an 11-carrier force from the delivery of Gerald R. 
Ford, in 2015, through 2040. We sustained submarine 
construction at two boats per year, average, for the next 
quarter century. We've canceled the CG(X) program, because of 
technical risk and affordability concerns, and we will continue 
DDG-51 construction, leveraging a stable and mature design and 
infrastructure, while increasing the ship's air and missile 
defense capabilities through spiral upgrades to the weapons and 
ship sensor suites. We've restructured the maritime 
prepositioning force to provide enhanced yet affordable sea-
basing capabilities.
    In the second half of this decade, we will need to proceed 
with recapitalization of three major ship programs. We plan to 
commence procurement of the replacement for the LSD-41-class 
amphibious ships, following the definition of lift 
requirements.
    We look to accelerate introduction of our next fleet oiler, 
the T-AOX. The T-AOX will bring greater efficiency and modern 
commercial design to our refueling-at-sea capabilities, while 
also providing critical stability to an important sector of our 
industrial base.
    Most significantly, we'll procure the lead ship of the 
Ohio-class replacement, SSBN(X), in 2019.
    The Navy's long-range shipbuilding plan fairly outlines the 
challenges we confront today. For the long term, in meeting our 
Navy's force structure requirements, operational, technical, 
manufacturing, and fiscal challenges all come to bear as we 
impose upon the plan greater cost realism and budget realism. 
In the most pragmatic terms, in balancing requirements, risks, 
and realistic budgets, affordability controls our numbers.
    So, to this end, we're focusing on bringing stability to 
the shipbuilding program, adjusting our sights to find the 
affordable 80 percent solution, when 80 percent meets the need: 
working across our systems commands to improve the quality of 
our cost and schedule estimates that inform our requirements 
decisions; placing greater emphasis on competition and fixed-
price contracts. We're continuing to improve our ability to 
affordably deliver combat capability to the fleet through open 
architecture. We're clamping down on contract design changes, 
and we have canceled high-risk programs.
    Our goals for mounting today's force and recapitalizing the 
fleet affordably cannot be accomplished without strong 
performance by our industrial partners. So, it's essential that 
we have a clear understanding of the issues affecting their 
performance. So, we're building upon past studies this year, 
with assessment of our shipyards, the vendor base, and the 
design-industrial base, with an eye towards capability, 
capacity, and productivity requirements needed by our Navy, 
near-term and far-term.
    In the end, industry must perform. We'll work to benchmark 
performance, to identify where improvements are necessary, to 
provide the proper incentives, and to reward sustained strong 
performance with favorable terms and conditions.
    To meet our objectives, we must be smart buyers. We've gone 
far, in the course of the past year, to reverse the downsizing 
trend of the acquisition workforce. From supervisors of 
shipbuilding to the warfare centers, systems commands, and 
program executive offices, we've added professionals in the 
fields of systems engineering, manufacturing, program 
management, contracts, cost-estimating, and test and 
evaluation. Of course, we have much farther to go.
    The objective is not merely to increase the workforce, but 
to restore core competencies that have slipped loose in the 
course of the past decade and a half of downsizing.
    In sum, the Department is committed to building the fleet 
required to support the national defense strategy, to which the 
fiscal year 2011 budget request addresses near-term 
capabilities while also laying the foundation for long-term 
requirements. Ultimately, we recognize that, as we balance 
requirements, affordability, and industrial-base 
considerations, it is vital that we, the Navy and industry, 
improve affordability within our programs in order to achieve a 
balance that gives greater favor to requirements in the 
industrial base.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. I look forward to your questions.
    [The joint prepared statement of Mr. Stackley, Admiral 
Blake, and General Flynn follows:]
Joint Prepared Statement by Hon. Sean J. Stackley, VADM John T. Blake, 
                USN, and Lt. Gen. George J. Flynn, USMC
    Mr. Chairman, Senator Wicker, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before you today 
to address Navy shipbuilding. The Department is committed to the effort 
to build an affordable fleet tailored to support the National Defense 
Strategy, the Maritime Strategy, and the new 2010 Quadrennial Defense 
Review (QDR). The Department's fiscal year 2011 budget will provide 
platforms that are multi-capable, agile, and able to respond to the 
dynamic nature of current and future threats. The fiscal year 2011 
shipbuilding budget funds nine ships, including two Virginia-class fast 
attack submarines, two DDG-51 class destroyers, two Littoral Combat 
Ships (LCS) including economic order quantity for seven ships sets, an 
Amphibious Assault Ship (LHA), a Mobile Landing Platform and the third 
Joint High Speed Vessel (JHSV) for the Navy. Additionally, a second 
fiscal year 2011 JHSV is funded in Other Procurement, Army for a total 
of 10 ships in fiscal year 2011.
    As we continue to build our future force, we remain engaged in 
operations in Afghanistan and in the drawdown of U.S. forces in Iraq.
    Since last year, the Marine Corps has transferred authority for 
Anbar Province to the U.S. Army. From 2003-2009, our force levels in 
Iraq averaged 25,000 marines. Our mission in Iraq is complete and your 
marines have redeployed.
    In Afghanistan, the mission has expanded. Since July, the 2nd 
Marine Expeditionary Brigade has conducted Operation Khanjar, the most 
significant Marine Corps operation since the battle of Fallujah in 
2004, and the largest helicopter insertion since the Vietnam War. As of 
September 22, 2009, there were more marines in Afghanistan than in 
Iraq. In December, they conducted Operation Cobra's Anger in the 
vicinity of Now Zad and recently the First and Third Battalions, Sixth 
Marines conducted a major offensive to secure Marja. There is now a 
robust Marine Air-Ground Task Force of 19,400 personnel with equipment, 
commanded by a Marine two-star general in Afghanistan. Your marines and 
sailors have already had success and have made a difference in some of 
the toughest regions of Afghanistan, primarily Helmand Province in the 
south--the source of the highest volume of opium production in the 
world. However, more work remains to be done.
    For the second year in a row, the Navy has more sailors on the 
ground than at sea in CENTCOM. At sea, we have more than 9,000 sailors, 
including a U.S. Navy aircraft carrier and air wing dedicated to 
providing 24/7 air support to U.S. and coalition forces on the ground 
and ships supporting counterterrorism, theater security and security 
force assistance operations. Navy riverine forces are on their sixth 
deployment to Iraq, conducting interdiction patrols and training their 
Iraqi counterparts. On the ground, we have more than 12,000 Active and 
Reserve sailors supporting Navy, Joint Force, and combatant commander 
requirements. Navy commanders lead 6 of the 12 U.S.-led Provincial 
Reconstruction Teams in Afghanistan. We have doubled the presence of 
our SEABEE construction battalions in Afghanistan, increasing our 
capacity to build forward bases for U.S. forces and critical 
infrastructure in that country. Our Naval Special Warfare forces 
continue to be heavily engaged in direct combat operations and our 
explosive ordnance disposal teams continue to conduct lifesaving 
counter-Improvised Explosive Device operations. As we shift our effort 
from Iraq to Afghanistan, demand for Navy individual augmentees (IAs) 
has increased. We have additional IAs supporting the surge of U.S. 
forces in Afghanistan while our IAs in Iraq remain at current levels to 
support the withdrawal of U.S. combat troops, maintain detention 
facilities and critical infrastructure, and support coalition efforts 
until the operations and support they provide can be turned over to 
Iraqi forces.
    While Iraq and Afghanistan continue to be the primary focus of our 
Nation's military efforts, our Navy remains globally present and 
engaged to protect our partners and advance our Nation's interests 
around the world. Approximately 40 percent of our Fleet is currently 
underway, providing U.S. presence in every region of the world. Our 
Fleet is executing all the capabilities of our Maritime Strategy today.
    Our ballistic missile submarines are providing nuclear deterrence 
year-round, while our Aegis cruisers and destroyers are providing 
conventional deterrence in the form of ballistic missile defense (BMD) 
of our allies and partners in Europe, the Mediterranean, and the 
Western Pacific. Our carrier strike groups and amphibious ready groups 
continue to prevent conflict and deter aggression in the Western 
Pacific, Arabian Gulf, and Indian Ocean, while their forward 
deployments afford the United States the ability to influence events 
abroad and the opportunity to rapidly respond to crisis.
    Our Navy continues to confront irregular challenges associated with 
regional instability, insurgency, crime, and violent extremism at sea, 
in the littorals, and on shore as we have done throughout our history. 
We are partnering with U.S. Coast Guard law enforcement teams in the 
Caribbean to conduct counter-narcotics and anti-trafficking operations 
and deny traffickers use of the sea for profit and exploitation.
    We continue to strengthen our relationships and build the 
capabilities of our international partners through maritime security 
activities, such as global maritime partnership stations in Africa, 
South America, and Southeast Asia, and high-end training and operations 
with partners in the Western Pacific. Our ships continue to conduct 
counter-piracy operations off the coast of Somalia with an 
international presence that includes traditional and nontraditional 
partners, such as China and Russia.
    We provided humanitarian assistance and disaster response to Haiti 
after a 7.0-magnitude earthquake devastated the Nation. Within hours of 
the earthquake, we mobilized the aircraft carrier USS Carl Vinson (CVN-
70) with over a dozen helicopters, cargo aircraft, and extensive 
potable water-generating capability. The USS Bataan Amphibious Ready 
Group with the 22nd Marine Expeditionary Unit, the USS Nassau 
Amphibious Ready Group with the 24th Marine Expeditionary Units, and 
the USS Gunston Hall immediately responded to stabilize the 
increasingly volatile environment. This force included over 4,300 
marines and sailors, 7 amphibious ships, 28 tilt rotor/rotary wing 
aircraft, multiple ship-to-shore landing craft, and significant 
medical, engineering, construction, and sustainment capability. 
Additional naval assistance included complementary sustainment and 
command and control capabilities along with a SEABEE construction 
detachment, our hospital ship USNS Comfort with medical personnel and 
supplies, a Navy dive and salvage team, P-3 surveillance aircraft; 
several surface ships with helicopters, Maritime Prepositioning Force 
ships with military and interagency supplies and equipment, and 
Military Sealift Command ships with fuel and cargo. Our disaster relief 
effort continues as part of a comprehensive U.S. Government and 
nongovernmental organization response.
    Global demand for Navy forces remains high and continues to rise 
because of the ability of our maritime forces to overcome diplomatic, 
geographic, and military impediments to access while bringing the 
persistence, flexibility and agility to conduct operations from the 
sea.
    The Department has updated the Long-Range Shipbuilding Plan based 
upon the 313-ship force originally set forth in the last Naval Force 
Structure Assessment, as amended by the Secretary of Defense decisions, 
and the 2010 QDR. As such, the plan is designed to provide the global 
reach; persistent presence; and strategic, operational, and tactical 
effects expected of naval forces within reasonable levels of funding. 
The plan balances the demands for naval forces from the National 
Command Authority and combatant commanders with expected future 
resources. The plan takes into account the importance of maintaining an 
adequate national shipbuilding design and industrial base and uses 
realistic cost estimates for the ships.
    In the near-term from fiscal year 2011 to fiscal year 2020, the 
Department of the Navy begins to ramp up production of ships necessary 
to support persistent presence, maritime security, irregular warfare, 
joint sealift, humanitarian assistance, disaster relief, and 
partnership building missions, namely the LCS and the JHSV. At the same 
time, the Department continues production of large surface combatants 
and attack submarines, as well as amphibious landing, combat logistics 
force, and support ships. Yearly shipbuilding spending during this 
period averages $14.5 billion (fiscal year 2010$), or about $1.5 
billion less than the 30-year average. The overall size of the battle 
force begins a steady climb, reaching 315 ships by fiscal year 2020.
    In the mid-term planning period, from fiscal year 2021 to fiscal 
year 2030, the recapitalization plan for the current fleet ballistic 
missile submarine (SSBN) inventory begins to fully manifest itself. 
Current plans call for 12 new Ohio-class replacement submarines 
(SSBN(X)) with life-of-the-hull nuclear reactor cores to replace the 
existing 14 Ohio-class SSBNs. Advance procurement funds for detail 
design for the first SSBN(X) begins in fiscal year 2015, and the first 
boat in the class must be procured in fiscal year 2019 to ensure that 
12 operational ballistic missile submarines will be available to 
perform the vital strategic deterrent mission. Eight more SSBNs will be 
procured between fiscal year 2021 and fiscal year 2030 (with the final 
three coming in the next planning period, beyond fiscal year 2031). 
Because of the high expected costs for these important national assets, 
yearly shipbuilding expenditures during the mid-term planning period 
will average about $17.9 billion (CY 2010$) per year, or about $2 
billion more than the steady-state 30-year average. Even at this 
elevated funding level, however, the total number of ships built per 
year will decline because of the percentage of the shipbuilding account 
which must be allocated for the procurement of the SSBN. Recognizing 
these impacts, we are looking at various ways to control the cost of 
these ships, including leveraging technology and lessons learned from 
the highly successful Virginia SSN shipbuilding program and by 
considering sustainment issues earlier in the design process than we 
have in the past.
    In the far-term, from fiscal year 2031 to fiscal year 2040, average 
shipbuilding expenditures fall back to an average level of about $15.3 
billion (fiscal year 2010$) per year. Moreover, after the production 
run of Ohio replacement SSBNs comes to an end in fiscal year 2033, the 
average number of ships built per year begins to rebound.
                           aircraft carriers
    The Navy remains firmly committed to maintaining a force of 11 
carriers for the next 3 decades. With last year's commissioning of USS 
George H.W. Bush (CVN-77) and inactivation of the 48-year-old USS Kitty 
Hawk (CV-63), our last conventionally powered aircraft carrier, we have 
an all-nuclear-powered carrier force for the first time. Our carriers 
are best known for their unmistakable forward presence, ability to 
deter potential adversaries and assure our allies, and capacity to 
project power at sea and ashore; however, they are equally capable of 
providing our other core capabilities of sea control, maritime 
security, and humanitarian assistance and disaster response. Our 
carriers provide our Nation the ability to rapidly and decisively 
respond globally to crises with a small footprint that does not impose 
unnecessary political or logistic burdens upon our allies or potential 
partners.
    Our 11-carrier force structure is based on world-wide presence 
requirements, surge availability, training and exercises, and 
maintenance. During the period between the November 2012 inactivation 
of USS Enterprise (CVN-65) and the commissioning of Gerald R. Ford 
(CVN-78), the Navy will utilize the congressional waiver for a 10 
carrier fleet. We will continue to meet operational commitments during 
this 33-month period by carefully managing carrier deployment and 
maintenance cycles. After the commissioning of CVN-78, we will maintain 
an 11 carrier force through the continued refueling program for Nimitz-
class ships and the delivery of our Ford-class carriers at 5-year 
intervals starting in 2020.
CVN-78
    The Gerald R. Ford (CVN-78) is the lead ship of our first new class 
of aircraft carrier in nearly 40 years. Ford-class carriers will be the 
premier forward deployed asset for crisis response and early decisive 
striking power in a major combat operation. They incorporate the latest 
technology, including an innovative new flight deck design to provide 
greater operational flexibility, reduced manning requirements, and the 
ability to operate all current and future naval aircraft. Among the new 
technologies being integrated is the electromagnetic aircraft launch 
system (EMALS) which will support Ford's increased sortie generation 
rates. EMALS is moving from having been a promising technology to a 
proven operational capability, which will deliver the warfighting 
enhancement needed in the future. Recently, the program successfully 
demonstrated a controlled launch sequence with the full-scale EMALS 
production representative unit and an aircraft launch demonstration is 
scheduled for later this summer. EMALS' production schedule supports 
delivery of CVN-78 in September 2015.
                          the submarine fleet
    Our attack and guided missile submarines have a unique capability 
for stealth and persistent operation in an access-denied environment 
and to act as a force multiplier by providing high-quality 
intelligence, surveillance, and reconnaissance (ISR) as well as 
indication and warning of potential hostile action. In addition, attack 
submarines are effective in anti-surface ship warfare and anti-
submarine warfare in almost every environment, thus eliminating any 
safe-haven that an adversary might pursue with access-denial systems. 
As such, they represent a significant conventional deterrent. While our 
attack submarine fleet provides considerable strike capacity already, 
our guided missile submarines provide significantly more strike 
capacity and a more robust capability to covertly deploy Special 
Operations Force personnel. Today, the Navy requires 48 attack 
submarines and 4 guided missile submarines (SSGN) to sustain our 
capabilities in these areas. The Navy is studying alternatives to 
sustain the capability that our SSGNs bring to the battle force when 
these ships begin retirement in 2026.
Virginia-Class SSN
    The Virginia-class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 13th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. These 
ships will begin construction at a rate of two per year in 2011, with 
two ship deliveries per year beginning in 2017. The Navy will attempt 
to mitigate the impending attack submarine force structure gap in the 
2020s through three parallel efforts: reducing the construction span of 
Virginia-class submarines, extending the service lives of selected 
attack submarines, and extending the length of selected attack 
submarine deployments. One of the critical aspects of this mitigation 
plan is achieving and sustaining a construction rate of two Virginia-
class submarines per year. The Navy continues to realize a return from 
investments in the Virginia cost reduction program and construction 
process improvements through upgraded shipbuilder performance on each 
successive ship. Not only are these submarines coming in within budget 
and ahead of schedule, their performance is exceeding expectations and 
continues to improve with each ship delivered. Additionally, three of 
the five commissioned ships completed initial deployments prior to 
their post shakedown availabilities.
Ballistic Missile Submarines
    Our ballistic missile submarines are the most survivable leg of the 
Nation's strategic arsenal and provide the Nation's only day-to-day 
assured nuclear response capability. They provide survivable nuclear 
strike capabilities to assure allies, deter potential adversaries, and, 
if needed, respond in kind. The number of these submarines was 
delineated by the Nuclear Posture Review 2001 which established the 
requirement of a force comprised of 12 operational SSBNs (with 2 
additional in overhaul at any time). Because the Ohio SSBNs will begin 
retiring in fiscal year 2027, their recapitalization must start in 
fiscal year 2019 to ensure operational submarines will be available to 
replace these vital assets as they leave operational service. As a 
result, the procurement plan in this report supports a minimum 
inventory of 12 SSBNs for this force.
Submarine Modernization
    As threats evolve, it is vital to continue to modernize existing 
submarines with updated capabilities. The submarine modernization 
program includes advances in weapons, integrated combat control 
systems, sensors, open architecture, and necessary hull, mechanical and 
electrical upgrades. These upgrades are necessary to retain credible 
capabilities for the future conflicts and current peacetime ISR and 
indication and warning missions and to continue them on the path of 
reaching their full service life. Maintaining the stability of the 
modernization program is critical to our future Navy capability and 
capacity.
                           surface combatants
    As in the past, cruisers and destroyers will continue to deploy 
with strike groups to fulfill their traditional roles. Many will be 
required to assume additional roles within the complex BMD arena. Ships 
that provide BMD will sometimes be stationed in remote locations, away 
from strike groups, in a role as theater BMD assets. The net result of 
these changes to meet demands for forward presence, strike group 
operations and BMD places additional pressure on the existing inventory 
of surface combatants, currently base-lined at 88. While a new force 
structure analysis may require the Navy to procure a greater number of 
these ships, we will also have to consider redistributing assets 
currently being employed for missions of lesser priority for these new 
missions as a result of the 2010 QDR and the President's commitment to 
supporting the missile defense of our European allies.
    In the Navy's fiscal year 2009 shipbuilding report, the lead CG(X) 
guided missile cruiser was planned to start in fiscal year 2011. This 
ship was to fulfill a critical role in integrated air and missile 
defenses (IAMD); but due to the ship's projected high cost and 
immaturity of its combat systems technology and still evolving joint 
BMD architecture, the Navy has determined that it is not feasible to 
continue to pursue a new-design CG(X) procurement program. Instead, we 
intend to deliver highly capable, multi-mission ships tailored for IAMD 
by spiraling the DDG-51 program into the next future destroyer, DDG 
Flight III. This preferred approach will develop the Air and Missile 
Defense Radar and install it on a DDG-51 hull with the necessary hull, 
power, cooling, and combat systems upgrades. The installation of this 
``family of systems'' upgrade to the existing DDG-51 class will define 
the third flight of these ships. The warfighting analysis completed for 
CG(X) directly supports requirements development for this upgraded DDG-
51 which is envisioned to be procured in fiscal year 2016.
DDG-51
    To address the rapid proliferation of ballistic and anti-ship 
missiles along with deep-water submarine threats, we have restarted 
production of the Arleigh Burke-class destroyer DDG-51 Flight IIA 
series. The first ship of the restart, DDG-113, was funded in fiscal 
year 2010 and the contract is expected to be awarded this summer. This 
budget procures an additional two ships in fiscal year 2011. These 
ships will incorporate integrated air and missile defense, providing 
much-needed BMD capacity to the Fleet. They will also leverage the 
maturity of the DDG modernization program and include all associated 
hull, mechanical and electrical alterations. We will continue 
production of the DDG-51 in order to leverage the hot production line 
to spiral the DDG-51 to address future IAMD capabilities.
    The DDG-51 class, starting with the Flight IIA restart, will 
continue to be upgraded in order to deliver the best combination of 
capability and capacity to meet future threats. This approach leverages 
the cost-savings of existing production lines; reduces total owner ship 
costs due to predictable designs; reduces cost overruns and delays 
through the incremental, or evolutionary, approach of developing new 
technologies; and it strengthens and stabilizes the industrial base to 
more efficiently and cost effectively produce ships to meet our 
national needs.
Littoral Combat Ship
    The Navy remains committed to procuring 55 LCSs. LCS expands the 
battle space by complementing our inherent blue water capability. LCS 
fills warfighting gaps in support of maintaining dominance in the 
littorals and strategic choke points around the world. The LCS program 
capabilities address specific and validated capability gaps in mine 
countermeasures, surface warfare, and anti-submarine warfare. The 
concept of operations and design specifications for LCS were developed 
to meet these gaps with focused mission packages that deploy manned and 
unmanned vehicles to execute a variety of missions. LCS design 
characteristics (speed, agility, shallow draft, payload capacity, 
reconfigurable mission spaces, air/water craft capabilities) combined 
with its core command, control, communications, computers and 
intelligence, sensors, and weapons systems, make it an ideal platform 
for engaging in irregular warfare and maritime security operations.
    Affordability remains the key factor to acquiring the needed future 
capacity of this highly flexible and capable ship. To stay on path to 
deliver this ship in the quantities needed, we announced this past 
September that we will down select between the two LCS designs in 
fiscal year 2010. We have assessed the combat capabilities of both 
these ships and believe that either ship would meet all of the key 
performance parameters for this class. While each ship brings unique 
strengths and capabilities to the mission and each has been designed in 
accordance with overarching objectives for reducing total ownership 
cost. On balance, they produce essentially equivalent results across 
the broad spectrum of missions assigned. Therefore, the down select 
will be based largely upon procurement cost considerations. The 
selected industry team will deliver a quality technical data package, 
allowing the Navy to open competition for a second shipyard to build 
the selected design beginning in fiscal year 2012. The winner of the 
down select will be awarded a contract for up to 10 ships from fiscal 
year 2010 through fiscal year 2014, and also provide combat systems for 
up to 5 additional ships built by the second shipyard. This decision 
was reached after careful review of previous fiscal year 2010 industry 
bids, consideration of total program costs, and discussions with 
Congress. In addition to the funding required for two seaframes in 
fiscal year 2011, our fiscal year 2011 budget includes an additional 
$280 million for economic order quantity for seven ships sets to 
continue the block buy which is essential to lowering the per unit 
costs of the seaframes. We request your continued support as we take 
the measures necessary to deliver this much needed capability at the 
capacity we need to meet future demands.
DDG-1000
    The DDG-1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant designed to fulfill long-range, 
precision land attack requirements. The first DDG-1000 is under 
construction, with plans for three ships in the class. There is a 
validated operational requirements document which specifies that naval 
surface fires will be necessary to support combat operations across the 
beach. The DDG-1000 features two 155mm advanced gun systems capable of 
engaging targets with the long-range land attack projectile at a range 
of over 63nm. In addition to providing offensive, distributed and 
precision fires in support of forces ashore, it will provide valuable 
lessons in advanced technology such as signature reduction, active and 
passive self-defense systems, and enhanced survivability features. 
Overall, construction of DDG-1000 is approximately 20 percent complete 
and is scheduled to deliver in fiscal year 2013 with the initial 
operating capability in fiscal year 2015.
Modernization
    As threats evolve it is vital to modernize existing ships with 
updated capabilities. Capable ships, supported by an effective 
industrial base, have been the decisive element during war, crisis 
response, and peace-time operations for more than two centuries. The 
destroyer and cruiser modernization program includes advances in 
standard missiles, integrated air and missile defense, open 
architecture, and necessary hull, mechanical and electrical upgrades. 
These upgrades are necessary to retain credible capabilities for future 
conflicts, including BMD, and to continue them on the path of reaching 
their full service life. Maintaining the stability of the cruiser and 
destroyer modernization program is critical to our future Navy 
capability and capacity.
    The DDG Modernization Program is planned to execute in two 6-month 
availabilities; hull mechanical and electrical first, followed by 
combat systems 2 years later. The program focuses on the Flight I and 
II ships (hulls 51-78), commencing in fiscal year 2010. However, all 
ships of the class will be modernized at midlife. Key tenets of the DDG 
Modernization program include: upgrade of the Aegis Weapons System to 
include an Open Architecture (OA) computing environment; upgrade of the 
SPY radar signal processor; addition of BMD capability; Evolved Sea 
Sparrow Missile (ESSM); the upgraded SQQ-89A(V)15 anti-submarine 
warfare system; the SM-6 Missile; and improved air dominance with 
processing upgrades with the Naval Integrated Fire Control-Counter Air 
(NIFC-CA) capability.
    The Cruiser Modernization Program is designed to modernize all 
remaining cruisers. The first fully modernized cruiser, USS Bunker Hill 
(CG-52), was completed in June 2009. The key aspects of the Cruiser 
Modernization program include: upgrade of the Aegis weapons system to 
include an open architecture (OA) computing environment; addition of 
Evolved Sea Sparrow Missile (ESSM); SPQ-9B radar; Close In Weapon 
System Block 1B; upgraded SQQ-89A(V)15 anti-submarine warfare system; 
and improved air dominance with processing upgrades and Naval 
Integrated Fire Control-Counter Air. Six cruisers will receive an 
additional BMD upgrade. Our fiscal year 2011 budget includes funds to 
execute the modernization of three cruisers and three destroyers.
                        amphibious warfare ships
    These ships provide distributed forward presence to support a wide 
range of missions from theater security cooperation and humanitarian 
assistance to conventional deterrence and assuring access for the Joint 
Force. When necessary, our forward postured amphibious forces can 
aggregate with others surged from homeports or other global locations 
to conduct major combat operations. The number of amphibious ships in 
the Department's inventory is critically important for overcoming 
geographic, diplomatic, and military challenges to access in 
permission, uncertain, or hostile environments.
    The Navy and Marine Corps have determined a minimum force of 33 
ships represents the limit of acceptable risk in meeting the 38-ship 
amphibious force requirement for the assault echelon in a 2 Marine 
expeditionary brigade (MEB) forcible entry operation. A 33-ship force 
comprised of 11 LHA/D amphibious assault ships and a mix of 11 LPD-17 
amphibious transport docks and 11 LSD(X) dock landing ships will be 
sufficient to support forcible entry operations with acceptable risk in 
the speed of arrival of combat support elements of the MEB.
LPD-17 Class Amphibious Warfare Ship
    The LPD-17 San Antonio class of amphibious warfare ships represents 
the Navy's commitment to an expeditionary, power projection and 
engagement fleet capable of operating across the full spectrum of 
warfare. The class has a 40-year expected service life and serves as 
the replacement for four classes of older ships: the LKA, LST, LSD-36, 
and the LPD-4. San Antonio class ships play a key role in supporting 
ongoing overseas operations by forward deploying marines and their 
equipment to respond to global crises. USS New York (LPD-21) 
commissioned last November and to date, two LPD-17 ships have completed 
initial deployments. The 11th LPD is planned for procurement in fiscal 
year 2012.
LHA Replacement (LHA(R))
    LHA(R) is the replacement for our Tarawa class ships that will 
reach the end of their already extended service life between 2011-2015. 
LHA(R) will provide flexible, multi-mission amphibious capabilities 
that span the range of military operations from forcible entry to 
humanitarian and disaster relief. LHA(R) will leverage the LHD-8 design 
while providing modifications that remove the well deck and increase 
aviation capacity to better accommodate aircraft in the future Marine 
Corps aviation combat element (ACE), such as the short take-off 
vertical landing Joint Strike Fighter and the MV-22. We laid the keel 
of the lead ship, USS America (LHA-6) in July 2009 and our fiscal year 
2011 budget includes funds for one LHA(R) which is split-funded in 
fiscal year 2011 and fiscal year 2012.
                 maritime prepositioning force (future)
    The MPF(F) concept envisioned a forward-deployed squadron of ships 
to enable rapid closure to areas of interest, at-sea assembly, and 
tactical employment of forces to areas of interest in the event of 
crisis. Although useful in the lower end of the war-fighting spectrum, 
this squadron was primarily designed for use in major combat 
operations. Due to refocusing of priorities and cost, this program has 
been restructured and replaced with alternatives which enhance the 
existing capabilities of the Maritime Prepositioning Ship (MPS) 
Squadrons. While the MPF(F) program originally intended for this 
purpose has been truncated in this year's program, the creation of a 
support program has been added to enable development of the tactics, 
techniques, and procedures required to fully exploit this mission area 
in the future. Ships previously discussed in the context of the MPF(F) 
are moved to the command and support section for battle force 
accounting. In addition, the Navy has determined the LHA-6 class 
amphibious assault ships previously designated for the MPF(F) would 
better serve the Navy and Marine Corps in the assault echelon force 
where they could be employed in joint forcible-entry operations. As 
such, the requirement for these ships has been moved to the amphibious 
warfare category.
    In support of this enhanced MPS concept of operations, three T-AKE 
auxiliary dry cargo ships have been shifted to provide logistic support 
to Marine Corps units ashore. Further, the Navy recognizes the need to 
provide for at-sea transfer of vehicles from a cargo ship and to 
provide an interface with landing craft air-cushioned vessels (both key 
capabilities the MPF(F) program was to provide). The Navy intends to 
procure three Mobile Landing Platforms (MLPs) to fulfill this 
capability. The planned MLPs, a lower cost variant of the MPF(F) MLP 
program, will be based on an Alaska-class crude oil carrier modified to 
be a float-on/float-off vessel. These ships will provide concept 
validation, operational testing and an incremental operational 
capability. Operationally, the three current MPS Squadrons will have an 
additional MLP and an additional T-AKE to supplement the current 
maritime prepositioning force in order to better provide in-theater 
capability to support resupplying a MEB.
                        joint high-speed vessel
    The JHSV provides high-speed support vessels for the Army and the 
Navy. JHSV will be an effective alternative to move assets throughout 
marginally developed theaters of operation while also requiring a less 
well developed port facility than is the case for today's principal 
lift assets. In addition, its relatively shallower draft permits 
operation in a greater number of port facilities around the globe. The 
combination of these attributes permits rapid transport of medium size 
payloads over intra-theater distances to austere ports, and load/
offload without reliance on well developed, heavy port infrastructure. 
Combatant commanders have made clear to the Navy their desire for this 
niche capability that can execute unique operations with partner 
nations throughout each of their areas of responsibility.
                      shipbuilding industrial base
    Beyond balancing requirements and resources, the fiscal year 2011 
President's budget submission for shipbuilding also weighs the 
shipbuilding industrial base. The Navy's plan leverages stable designs 
to minimize disruption experienced over past decade of ``first of 
class'' construction. The plan provides stable procurement rates within 
constraints of requirements and budget which allows industry to plan 
and invest in facilities and process improvements to drive learning and 
efficiencies into serial production. The fiscal year 2011 shipbuilding 
plan ensures that major suppliers have ``base'' workload and 
opportunity to compete for future ship construction. As an example, the 
revised LCS acquisition strategy creates opportunity for our major 
shipbuilders to compete for future workload that was previously limited 
to incumbents. The Navy intends to sustain dual sources for fast attack 
submarines, surface combatants, LCSs, and amphibious/auxiliary ships.
    The Navy continues to promote efficiency within the shipbuilding 
industry. The Navy has expanded use of competition and fixed-price 
contracts; incentivized shipyards to improve facilities through 
contract incentives, selective release of retentions, and Hurricane 
Katrina infrastructure funding; cracked down on contract changes; and 
judiciously employed multiyear authority, block buy authority and 
economic order quantity to show commitment to stable production.
    Finally the Navy has initiated a Shipbuilding Industrial Base Study 
to review capabilities/capacities of the shipyards including design and 
production; the health of the vendor base, and trends in rates and 
overhead, productivity, and investment strategies. This study will 
inform Navy's fiscal year 2012 budget deliberations.
                         acquisition workforce
    The Department has embarked on a deliberate plan to increase the 
size of the DoN acquisition workforce by at least 5,000 employees over 
the Future Years Defense Program (FYDP), or about a 12 percent 
increase. We started last year and aggressively increased our 
acquisition workforce based upon bottoms-up requirements from our PEOs, 
systems commands, and warfare centers. In the last 15 months, for 
example, we have added 400 acquisition personnel (journeyman and high-
grade) to support shipbuilding programs at the Naval Sea Systems 
Command. In addition, we have added over 900 acquisition personnel to 
our warfare centers across the country, that provide critical 
engineering, integration support, testing, and contracting oversight to 
all of our sea, air, land, space acquisition programs. These personnel 
are critical since they represent a part of the pipeline of future 
program managers and senior systems engineers.
    We have also taken advantage of the Defense Acquisition Workforce 
Development Fund (DAWDF), initiated by Congress, and added nearly 300 
acquisition interns this past year, and are on target to bring aboard 
an additional 500 this year and next. About 30 percent of our DAWDF 
acquisition workforce hires are now in shipbuilding organizations. We 
have also improved our education and training programs in two critical 
areas of need--shipbuilding program management and contracting. We have 
used DAWDF funds to pilot a shipbuilding program manager's course that 
was successful enough that we are moving it permanently to our Defense 
Acquisition University program. In addition, because of the difficulty 
in hiring experienced contracting officers, we have implemented an 
intense accelerated contracting training program at the Naval Sea 
Systems Command to increase the number of qualified contracting 
officers as well as increase retention rates among this important 
group. It will take several years to rebuild and rebalance the DoN's 
acquisition workforce, but these measures and continuing them with this 
budget is an important step.
    These acquisition workforce initiatives are supportive of DOD's 
high priority performance goal to ``Reform the DOD Acquisition 
Process'' in the President's Analytic Perspectives volume (page 78) of 
his fiscal year 2011 budget which includes these performance measures:

        <bullet> By 2011, DOD will decrease reliance on contract 
        services in acquisition functions by increasing the in-house 
        civilian and/or military workforce by 4,765 authorizations for 
        personnel.
        <bullet> By 2011, DOD will increase the total number of DOD 
        civilian and military personnel performing acquisition 
        functions by 10,025 personnel (end strength).

    Navy's other acquisition initiatives described in this testimony 
are supportive of the other performance measures in DOD's high priority 
performance goal to ``Reform the DOD Acquisition Process.''
                                summary
    The Navy's Long Range Plan for the Construction of Naval Vessels 
addresses the requirements in support the National Defense Strategy, 
the Maritime Strategy, and the new 2010 QDR. The plan sustains an 11-
CVN force from 2015 through 2045; increases Virginia-class build rates 
to two submarines per year; increases air and missile defense 
capability with continued DDG-51 construction and Aegis modernization; 
increases amphibious lift capability with LHA-7 procurement in fiscal 
year 2011 and the 11th LPD in fiscal year 2012; increases intratheater 
lift capability with increased JHSV procurement; and continues Ohio-
class replacement design and development by funding research and 
development efforts within the FYDP as well as advance procurement 
funds for detail design in fiscal year 2015.
    Through the Long-Range Plan for Naval Vessels, the Navy has 
addressed affordability. The plan continues DDG-51 construction to 
leverage a stable design, mature infrastructure, and affordable 
capabilities. The Navy cancelled CG(X) and truncated DDG-1000 
procurement at three ships and consolidated construction in a single 
shipyard. The Navy plans to transition DDG-1000 technologies and has 
aligned CG(X) Research and Development funding to the DDG-51 platform 
including development of the air and missile defense radar. The Navy 
intends to down select to a single LCS design which leverages 
competition, commonality, and efficient construction rates. The Navy 
has restructured the Maritime Prepositioning Force by continuing 
development of enhanced seabasing capabilities for the Maritime 
Prepositioning Squadrons. We have directed the LHA(R) ships to the 
amphibious force and intend to augment with MPS squadrons with a T-AKE, 
Mobile Landing Platform, and an existing large medium speed roll-on/
roll-off ship. The Mobile Landing Platform will leverage an existing 
commercial design. The Navy has also increased the emphasis for meeting 
and extending service lives of in-service ships. We are sustaining the 
CG/DDG Modernization efforts and are targeting extension of the more 
capable DDG-51 Flight IIA ships to 40 year. We have deferred command 
ship replacement and intend to sustain the current command ships until 
2029.
    The Navy has addressed realism in the Long-Range Plan for Naval 
Vessels by incorporating realistic budget projections in the near- and 
mid-term and realistically estimating the long term. In addition, in 
this year's plan the Navy has included the estimated funding for the 
Ohio-class replacement program during the mid-term period.
    Finally the Navy has addressed the industrial base in leveraging 
stable designs to minimize disruption experience with first of class 
constructions, provides stable production rates within the constraints 
of requirements and budget and ensures major shipbuilders have base 
workload and opportunities to compete for future ship construction.

    Senator Reed. Thank you, Secretary Stackley.
    I presume that Admiral Blake's and General Flynn's 
statements that are included in the record are sufficient.
    Admiral Blake. Yes, sir.
    Senator Reed. Fine.
    Let me just begin a 7-minute round, and I anticipate also 
having a second round.
    Secretary Stackley and Admiral Blake, the Navy's surface 
ship plan is basically divided into three periods: near-term, 
mid-term, and long-term. It's my understanding that, when in 
the near term, one of the driving forces is the Hull Radar 
Study, which some people have concluded suggests the approach 
is to buy a heavily modified DDG-51, and then add the yet-to-
be-developed AMDR.
    Just two questions. If the AMDR--which is currently being 
developed--is not ready for the fiscal year 2016 ship cycle, 
what are your plans? Mr. Secretary or Admiral Blake?
    Mr. Stackley. Let me start.
    Prior to the Hull Radar Study, we had initiated the AMDR, 
not a program at the time, but technology development, 
recognizing that this is the capability we believe we need to 
drive to, to be able to bring the ballistic missile defense 
(BMD) capability that the fleet needs in the back half of this 
decade.
    That technology development was initiated a year-plus ago. 
We made a conscious decision, at the front end, to leverage 
competition, to the extent practical. We have three very 
capable competitors for that systems development. So, we are 
sustaining competition on the front end as we go through, 
today, technology development, going to ultimate system 
delivery.
    As we did the Hull Radar Study in the course of 2009, we 
attacked this a couple of different ways. First, we put 
together a core team to do the study, which comprised our 
warfare centers, our program offices, and our systems commands. 
Then we wrapped that with outside experts, in the form of the 
Applied Physics Lab, Massachusetts Institute of Technology 
Lincoln Labs to, one, identify the right technology for the 
threat; two, determine how much capability is required; and, 
three, look at the technical viability and feasibility of the 
schedules that we are driving to.
    The outcome of that study was that both the core team and 
the outside expert team that we brought to it concluded that 
2016 was the feasible timeframe for AMDR. That means that 
between now and 2016 we need to continue to monitor progress in 
that development before we put the 2016 ship under contract, 
with the intent of ensuring we're not tying ourselves down to 
concurrent development with ship construction.
    We have a path that we have to plow, between now and 2016, 
to monitor progress in the competition, in the technology 
development before 2106. If we determine, as we approach that, 
that we cannot get there on that timeline, then we're going to 
have to revisit.
    What we're not going to do is put immature technology into 
2016. At that point in time, we would keep a viable path going 
forward, where the development of the technology would pace the 
incorporation of the capability.
    Senator Reed. Thank you.
    Admiral Blake, any comments?
    Admiral Blake. I would just add, sir, that when we looked 
at the Hull Radar Study, we looked at it from three 
perspectives: from the perspective of the hull; the combat 
systems; and the radars themselves. We determined in that study 
that either hull could support the systems. We determined that 
the SPY-3, as well as AMDR, was the correct approach; it was 
more capable, it was scalable, and we could do it that way.
    The third piece was, we looked at the lines of code that 
would be required as we looked at the DDG-51, and there was 
significantly less technical risk on the side of the DDG-51, as 
compared with any other hulls.
    Senator Reed. Thank you.
    Just let me add a followup question, and that is, with this 
proposal of modified DDG-51, with the new radar for 2016, do 
you have a good understanding of the total cost of the ships, 
both the hull modifications and the new radar and fighting 
combat systems?
    Secretary Stackley?
    Mr. Stackley. Yes, sir. Let me just start with the baseline 
ship. The last ship under construction and contract right now 
is DDG-112. We're going into the restart with 113, 114, and 115 
at the two building yards. We have a solid estimate for that 
baseline. When we look at the 2016 ship, first we deal with 
core capabilities. The core capabilities would be the upgrade 
to the AMDR, bring in SPY-3, and then it's the support systems 
that go with the sensor suite upgrade. So, we're talking power 
and cooling.
    The 30-year report does not lay in the costs for those 
upgrades, because we're going through the 2012 timeframe to put 
together, in concert with a requirement from last year's 
authorization bill, the technology roadmap that gets us there.
    We have rough estimates today. We're refining the estimates 
as we look at the candidate technologies. That would lead to a 
POM-12 for a 2016 ship.
    Senator Reed. Okay.
    Let me raise another question. This goes to continually 
looking back at alternative approaches. At some point, if the 
proposed modified DDG-51 plus the new radar gets so expensive, 
do you look back at going the other way; taking the DDG-1000, 
and modifying that ship to be more capable? Is there a point at 
which you begin to look at alternatives?
    Mr. Stackley. We took a hard look at that with the Hull 
Radar Study, and there are several factors that work against 
that approach. One is the core combat system itself, and what 
it would take to modify the DDG-1000 core combat system to 
match what we have today, out in the fleet, with the Aegis and 
the advanced-capability builds that we have associated with the 
Aegis program. The other is the basic platform itself.
    Senator Reed. Admiral Blake, do you have any comments?
    Admiral Blake. I would go back to the point I mentioned 
earlier about the lines of code. It was such a significant 
difference, when you looked at the DDG-1000 versus the DDG-51, 
it was in the range of two to one, because of that, it was felt 
that it was significantly less technical risk, and therefore 
that would be the more prudent path to go down.
    Senator Reed. Thank you.
    Let me ask one final question in this round before I 
recognize Senator Wicker. With respect to DDG-1000, Secretary 
Stackley, it has breached the Nunn-McCurdy line, so there's a 
technical review underway. My understanding is, the principal 
cause of that is the truncation of the program from seven ships 
to three ships. Can you comment on that?
    Second, what effect will this have on the truncated 
program, as it exists today?
    Mr. Stackley. Yes, sir. Let me start with the baseline for 
the DDG-1000 program was struck at milestone B when it was, at 
that point in time, a 10-ship program. When you look at the 
criteria for determining the procurement acquisition unit cost, 
you have both a research and development (R&D) component, as 
well as a procurement component. The program has a healthy R&D 
stream that preceded procurement. So, when you go from a 10-
ship program to a 7- and then, ultimately, to the 3-ship 
program, that R&D front end basically gets divided into 3 ships 
and becomes a significant burden on the average unit cost.
    That became the mechanism that triggered the Nunn-McCurdy 
critical breach. We're going through the process, right now, to 
meet the criteria for certifying continuation of the program, 
where we have five criteria that we need to certify. We are 
more than midstream through that process. June 4 is our 
requirement to certify, or other, back to the Hill. As you 
indicated in your remarks, the driver for this particular 
program has to deal with the quantity impact on the average 
unit cost.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Wicker, please?
    Senator Wicker. Thank you.
    Gentlemen, in your joint statement, the testimony reads, 
``The Navy remains firmly committed to maintaining a force of 
11 carriers for the next 3 decades.'' Firmly committed. The 
statement goes on to say that for a 33-month period, after the 
inactivation of the Enterprise and before the commissioning of 
the Gerald R. Ford, the Navy will utilize a congressional 
waiver for a 10-carrier fleet and then, after that, will 
maintain an 11-carrier force through the continued refueling 
program, et cetera.
    By contrast, I mentioned in my opening statement that I 
hoped that you would help overcome some confusion that I have 
with regard to the Secretary of Defense and his speech on 
Monday. He said, ``Considering that the Department must 
continually adjust its future plans as the strategic 
environment involves.'' He mentions two things, one of which is 
aircraft carriers. The Secretary said this: ``Our current plan 
is to have 11 carrier strike groups through 2040. To be sure, 
the need to project power across the oceans will never go away. 
But, consider the massive overmatch the United States already 
enjoys. Consider, too, the growing antiship capabilities of 
adversaries. Do we really need 11 carrier strike groups for 
another 30 years, when no other country has more than 1?''
    The QDR came out in February, Secretary Stackley. What has 
changed in the strategic environment to cause DOD and the 
Secretary of Defense to seemingly make such a dramatic 
departure from the QDR in a very important speech on Monday?
    Mr. Stackley. Sir, let me be careful not to reinterpret the 
Secretary of Defense's speech, but try to address your 
question.
    As described, both in my opening remarks, and I think you 
have hit on it as well, we have some very significant 
challenges before us in the Department of the Navy's 
shipbuilding program, regarding meeting our force structure 
requirements, for the 313-ship Navy, which includes 11 
carriers, and doing it affordably, within the budgets that we 
have today within the Future Years Defense Program (FYDP) and, 
equally importantly, beyond the FYDP, when we project what it's 
going to cost.
    The message that Secretary Gates has been very consistent 
with the Department of the Navy on is affordability of the 
Navy's shipbuilding program; that to achieve our 313-ship plan 
with realism associated with future budgets, we have to come 
after affordability. We're doing that across the board in each 
of the areas that he highlighted in his speech. It's carriers, 
but it's carrier strike groups, which include support ships. 
It's the future Ohio-class replacement, and combatants, as well 
as amphibs.
    I view his remarks in the framework of budget realism. We 
have to improve affordability to hit our numbers, in terms of 
force structure. We have to find that balance.
    Senator Wicker. So, you're making a distinction between 
carriers and strike groups?
    Mr. Stackley. He used the term carrier strike groups, 
which, when I hear carrier strike group, I hear the carrier and 
its escort ships.
    Senator Reed. Can I intervene for 1 second?
    There's a vote on. I would propose to run over and vote.
    Senator Webb will be recognized immediately after Senator 
Wicker. I will warn people that you're on your way, Senator.
    Thank you.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Wicker. We certainly need to be mindful of cost, 
Mr. Secretary. But, the Secretary of Defense said, ``Do we 
really need 11 carriers?'' I'm just asking, have you had a 
conversation with the Secretary of Defense since he made these 
remarks on Monday?
    Mr. Stackley. No, sir.
    Senator Wicker. Did you participate at all with the 
Secretary in formulating his remarks on Monday?
    Mr. Stackley. No, sir.
    Senator Wicker. I see.
    General Flynn, did you participate with the Secretary? Did 
he show you the speech before he made it?
    General Flynn. No, sir.
    Senator Wicker. Admiral Blake?
    Admiral Blake. No, sir.
    Senator Wicker. Okay.
    But, as far as the three of you are concerned, the Navy 
remains firmly committed to maintaining a force of 11 carriers 
for the next 3 decades.
    Admiral Blake. Sir, as you noted in our statement, the Navy 
does remain firmly committed to 11 carriers. As you also noted, 
it is the law.
    The second point I would make on that is, if you were to 
ask the CNO today, he would note for you that there has been no 
decrease in the demand signal for carriers from the combatant 
commanders (COCOMs), either now or as we look ahead to the 
foreseeable future.
    Senator Wicker. I see.
    Let me, then, move on to one other thing, and then I'll 
turn it over to Senator Webb for the first round.
    The Secretary went on to say, on Monday, about how nice it 
was, and a real strategic asset, during the first Gulf war, to 
have a flotilla of marines waiting off Kuwait City, forcing 
Saddam's army to keep one eye on the Saudi border and one eye 
on the coast. Then he goes on to say, ``But, we have to take a 
hard look at where it would be necessary or sensible to launch 
another major amphibious landing again.'' Further on, ``On a 
more basic level, in the 21st century, what kind of amphibious 
capability do we really need to deal with the most likely 
scenarios?'' Then, ``How much?''
    General Flynn, I'm not trying to get this panel into a 
debate with the Secretary of Defense. But, as far as the 
question of asking ourselves these questions, I thought we 
asked the questions and then developed the QDR. In what 
scenarios, General, might it be necessary or sensible to launch 
another major amphibious landing again?
    General Flynn. Senator, one of the key things, I think, 
that the Secretary said is, ``We can't define ourselves by the 
past.'' I don't believe we determine what our amphibious and 
power projection capabilities are by the events of the past. 
The heroic battles of Iwo Jima and Inchon and even what we did 
during Operation Desert Storm are in the past. As we look to 
the requirements of the future and what is demanded by the new 
security environment, I think we need to go to more recent 
history and take a look at the amphibious withdrawal from 
Somalia; the ability to project power into Afghanistan with 
Task Force 58; the noncombat evacuation of Lebanon, which was 
made possible by the fact that we had the ability to come 
ashore if we had to; the numerous partnership engagements that 
go on around the world right now; to the use of naval forces to 
prevent conflict; as well as the responses to humanitarian 
crisis and disasters around the world. That's how we're looking 
at defining the requirement. We believe that we need to take 
advantage of new operating concepts, which I believe we are in 
what you see, and the new plan now is to use the sea base as an 
operating base, and also to use the sea as maneuver space.
    So, we're changing our operational concepts. We're going 
beyond things of the past. Major assaults, as they were planned 
in the past, are not, probably, going to happen in the future. 
But, other operations are, and they're going to be defined by 
using the sea as a base of operations and, also, the sea as 
maneuver space.
    Senator Wicker. No major assaults are likely. What about 
major amphibious landings?
    General Flynn. Sir, I think those are still a possibility 
in the future. But, assaults, as they were envisioned in the 
past--what comes to mind most often are battles like Inchon and 
Iwo Jima--they're probably not going to happen in the future.
    But, the ability to project power--and we believe the 
minimum requirement is to be able to project at least a two-
brigade capability--is still a viable requirement, and one that 
we size the force to do, sir.
    Senator Wicker. Thank you.
    Let me just consult about how much time we have on this 
vote. [Pause.]
    I think what we're going to have to do is recess. I think, 
probably, Chairman Reed will be back in just a moment, because 
there was only one vote. But, for now, we'll recess, subject to 
the call of the chair. [Recess.]
    Senator Reed. Let us reconvene.
    At this point, I'd like to recognize Senator Collins, if 
you're ready, Susan.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, you know that I really should be right up 
there by you, given my seniority. But, I'm delighted to be a 
member of your subcommittee, and look forward to working very 
closely with you on these issues which we care a lot about.
    Senator Reed. Likewise.
    Senator Collins. Secretary Stackley, I want to follow up on 
an issue that the chairman raised about the Nunn-McCurdy cost 
breach for the DDG-1000 program. I think it's important, for 
the record, for all of us to reemphasize that this breach was 
caused by the reduction in quantity. It was not due to poor 
performance by the contractor. Is that correct?
    Mr. Stackley. Yes, ma'am. To restate what I stated earlier, 
the R&D costs for the total program now get borne by three 
ships. That triggers a critical breach. There's actually 
several major contractors involved.
    Senator Collins. True.
    You can imagine the one I am most interested in.
    Mr. Stackley. Yes, ma'am. But, when we evaluate, we take a 
look at total cost of the program.
    This program has gone to great lengths to ensure that the 
maturity of the design is high before we get into construction. 
When we looked at reducing the number of ships, we went to 
great lengths to try to align the construction effort to a 
single location to gain efficiencies for a three-ship build and 
to leverage all that you can in one location. So, the efforts 
for the three-ship construction programs, when you look at the 
procurement unit cost as opposed to the R&D piece of it, we've 
been keeping that contained.
    Senator Collins. I recognize that the process to recertify 
the DDG-1000, in light of this breach, requires significant 
analysis. You indicated to the chairman that you're about 
halfway through that process. I am concerned, however, that 
these delays are going to have an impact on program schedule, 
on program cost, and on the maintenance of the workforce, 
unless it comes to a closure soon. Could you give us some 
better understanding of how soon you think the process will be 
completed, and when the second and third DDG-1000 ships could 
be put under contract?
    Mr. Stackley. Yes, ma'am. Let me start with the schedule. 
June 4 is the hard-and-fast date that we need to meet for 
certification. That's a pretty well-understood date for all the 
Nunn-McCurdys. We're driving to that date, and we will have all 
the issues addressed to support that schedule.
    With regards to construction contracts, Bath Iron Works 
(BIW) has construction contracts for both DDG-1000 and -1001. 
Since the original program had production split over two 
shipyards, BIW had a piece of 1001 when that ship was 
contracted with Northrop Grumman. As the contract has moved 
north, they still have a core piece of their work share on 
1001. We have a proposal in hand for the balance of the ship, 
under a fixed-price proposal, and we are negotiating those 
details so that when we come out of the Nunn-McCurdy process, 
we can quickly conclude the contract actions that are 
necessary.
    In the interim, we have existing material procurement 
contracts, so that we can keep material orders on schedule, 
without causing disruption for those ships' construction 
schedules to keep the costs contained.
    Senator Collins. Mr. Stackley, in Secretary Gates' speech 
on Monday, he talked about the need for the Navy and the 
industry to find ways to build ships more economically. One way 
to do that is for the Navy to make greater use of multiyear 
procurement contracts. As the Navy looks at the restart of the 
DDG-51 line, are you giving consideration to the use of 
multiyear procurement contracts?
    Mr. Stackley. Absolutely, we are. We've used two multiyears 
in the past, with the DDG-51 program, that provided great 
benefit. We are not ready yet--the initiation of the restart--
to go right into a multiyear.
    We do owe Congress an acquisition strategy. In formulating 
that acquisition strategy, we will be addressing an approach 
that considers multiyear, perhaps in 2013.
    Senator Collins. Finally, I want to pick up on an issue 
that the ranking minority member raised, and that is about the 
adequacy of the shipbuilding budget. The Congressional Budget 
Office (CBO) has estimated that, in order to achieve the level 
of shipbuilding that is set out in the 30-year shipbuilding 
plan, you would need about $4 billion more a year than what the 
Navy is budgeting. The Navy, I believe, is assuming an annual 
investment of about $15.9 billion to meet the long-term goals 
of the plan. But, CBO has testified that the shipbuilding plan 
would cost $20 billion a year. That was even based on a smaller 
plan than what the Navy ultimately embraced.
    What is your reaction to the CBO's estimates of what it 
believes would be the true costs of carrying out the plan?
    Mr. Stackley. Yes, ma'am. A couple things. First, the Navy 
has great respect for CBO's works. We spend time sharing data 
and information to understand our respective assumptions so 
that, where there are differences in our estimates, we can 
address them head-on.
    In the CBO's report, in looking at a 30-year plan, the 
numbers that you quoted stretch out across the full 30-year 
plan. If you break it down into near-term, mid-term, and far-
term, I think CBO would agree that our differences in the near-
term are not to the extent that you've described; they're on 
the order of single digits of percent differences. In terms of 
the FYDP and the near-term, we're not exact, but we are 
relatively close. Now what we have to do is understand our 
differences and attack those differences.
    Now, it grows in the longer term. We do have concerns with 
the projected costs and budgets in the longer term. That's why 
we're spending a great amount of effort today going after, not 
just requirements, but capabilities to meet the requirements to 
find more affordable solutions for our ship programs.
    What CBO has highlighted is a risk in our 30-year program 
that is pronounced in the far term. What we intend to do is use 
the time we have now to try to address those risks, as well as 
understand our differences. We have different assumptions on 
things like escalation that, when you compound an escalation 
assumption over 30 years, it becomes pretty extreme on the back 
end.
    We respect their analysis. We sit down, side by side, to 
understand the differences. We believe we're fairly close in 
the near-term, and we are tackling the issues in the near-term. 
We see the risk in the long-term, and we are working on that on 
the R&D side, in terms of defining requirements and 
capabilities.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, let me start off by pointing out that all three of 
you graduated from the Naval Academy. Is that correct?
    Mr. Stackley. Yes, sir.
    Admiral Blake. Yes, sir.
    General Flynn. Yes, sir.
    Senator Webb. Did you ever think there would be a time, 
when you were a midshipman, when you would be testifying before 
a chairman who graduated from West Point? [Laughter.]
    That's a rhetorical question, Mr. Chairman. [Laughter.]
    When I ran the Guard and Reserve programs, I spent most of 
my time with the Army, so I guess turnabout is fair play here.
    I'd like to pick on a couple of points that Senator Wicker 
made. I think they are really important for us to get a clear 
idea of what this administration is doing, in terms of setting 
goals, on the one hand, and then hearing contrary information, 
on the other.
    It is the administration's position that the Navy should 
grow to 313 ships. Is that correct, Secretary Stackley?
    Mr. Stackley. Yes, sir.
    Senator Webb. Okay. I just want to make sure of that.
    I had some real concerns with Secretary Gates' comments. I 
have great respect for him. I know that he, like you and all of 
us, is looking for efficiencies, in terms of shipbuilding 
programs and these sorts of things. But, this quote that 
Senator Wicker mentioned, it goes to a fundamental 
misunderstanding that I have seen repeated over and over again, 
through different cycles, about why we have a Navy.
    When someone says that there is a massive overmatch between 
our Navy and other navies around the world, I think it's a 
misstatement of why we have navies or how different countries 
field military forces. You don't field a navy to fight another 
navy. You field military forces to protect your essential 
national interests.
    Our Navy, as I believe all of you would agree, is vital to 
the strategic posture of the United States and to deterring 
malevolent behavior in a wide range of hotspots around the 
world that is an additional requirement, in terms of 
potentially fighting another navy, and it's also a requirement 
that we cannot ignore as we periodically, including right now, 
become committed to long-term engagements on the ground.
    I think it would be a very serious mistake to cut back the 
defense budget or to alter the defense budget in order to fund 
ground forces that are in Iraq and Afghanistan, hopefully 
temporarily, in terms of the whole cycle of how our country 
operates, and, at the same time, do that at the expense of 
these vital shipbuilding programs that take years and years to 
put into place and are the envy of every other country.
    Anytime a large emerging country decides that they want to 
become an international power, ask yourself what they do: they 
build up their navy; they try to build aircraft carriers. The 
Chinese are trying to build an aircraft carrier right now. So, 
let's be very, very careful, in terms of what we do affecting 
our long-term viability.
    Admiral, I'd like you to, just for the record here, tell us 
how long it takes to design, build, test-run, and actually put 
to sea an aircraft carrier, from the inception of the concept.
    Admiral Blake. I would first start with the R&D piece, sir. 
But, I would tell you that we need dollars up front for at 
least 7 years. We've just shifted the carriers from 4\1/2\- to 
5-year cost centers. That means we need those cost centers 
there in order to be able to get the ship from design all the 
way to put it out in the fleet.
    The other concern I think you have to look at is the 
industrial base. Because when you design a carrier which is an 
extremely unique asset, you must make sure that when you put 
that out there you are supporting the industrial base, which, 
as we know, has many fragile points in it.
    From the beginning to the end, it is something that we have 
to definitely take into account. That was one of the things we 
took into account when we moved the cost centers from 4\1/2\ to 
5 years.
    Senator Webb. So, from the beginning of a design concept to 
actually putting that ship out to sea in harm's way, we're 
talking how many years?
    Admiral Blake. I believe it's 7, sir.
    Mr. Stackley. I can take that, sir.
    Senator Webb. Secretary Stackley?
    Mr. Stackley. Yes, sir. For a clean-sheet design, you're 
probably talking, from the start of the design to the ship 
operating it's about a 17-year period, for something like a 
carrier.
    Senator Webb. It's a considerable amount of time. Anyone 
who's visited one of these shipyards and seen, literally, the 
generations of expertise that go into how you lay down an 
aircraft carrier--where you put your wiring, all these sorts of 
things--can understand that this is something that has been 
passed down from generation to generation. It's very difficult 
to recreate, once you lose the workforce or you get away from 
the concept. That's why it's so difficult for other countries 
to match what we have.
    My comment today, Mr. Chairman, is basically just a note of 
caution, in terms of how dangerous it would be for us to waver 
from this essential part of our strategic makeup.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Webb.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    I want to follow up on the comments of Senator Webb and 
Senator Wicker on the issue of the 313-ship plan, and ask when 
you expect the Navy will reach that plan.
    Mr. Stackley. The 30-year report lays out both the 
structure of the 313-ship Navy, in terms of numbers versus 
types of ships, where we stand today, at 286 ships, and both 
our procurement plan and our decommissioning plan; so, the puts 
and takes and what the total force structure looks like over 
the next 30 years. We hit a number of 320 at about 2020.
    So, when do we actually hit 313? It's the end of this 
decade. Then we're challenged to stay at that number. We're 
challenged to stay at that number because of the competition 
within the budget for the higher-class replacement program, and 
then to be able to sustain our force structure as the ships 
that we built in the 1980s and the 1990s, at high rates, meet 
their retirement age.
    Senator LeMieux. Is the Navy prepared to be flexible in the 
decommissioning of ships if the new ships that were required to 
get to 313 don't come online, as expected?
    Mr. Stackley. We have to be careful that we do that well in 
advance. So, when we look ahead, at surface combatants in 
particular, and recognize that the Arleigh Burke-class, that we 
procured at three to five per year in the 1990s, will be 
decommissioning at a rapid rate in the 2020s and 2030s, we need 
to look at extending their service life in order to hold up our 
force structure, because we won't be able to recapitalize at 
the same rate we bought those on.
    Right now, the DDG-51 program is entering a mid-life 
modernization program. At the front end of that, we're taking a 
hard look at the material condition. We're baselining those 
ships. We are emplacing sensors and putting a surveying program 
in place, so that when we get to the more capable Flight IIA 
51s going through modernization, we can do the necessary things 
to extend their service lives.
    Senator LeMieux. That's good to hear. No one wants our 
sailors to be operating on a ship that's not safe or not up to 
par. But, at the same time, if the ship is still seaworthy and 
can still perform its mission, if we're having challenges 
adding new ships to get to the 313 level, it makes sense to do 
the things you just spoke about.
    Let me ask you a question about the readiness level and our 
313-ship plan, specifically to this administration's 
announcement last year of its new plan for BMD in Europe and 
for it to be more reliant upon our Aegis-class ship force, with 
the cruisers and destroyers. Based upon that change, do we have 
a sufficient cruiser and destroyer fleet in order to meet that 
mission?
    Admiral Blake. Sir, if I could take that question?
    Senator LeMieux. Yes, sir.
    Admiral Blake. What you see now is the Navy's approach to 
the BMD challenge, which we are currently addressing. We 
currently have in the fleet 21 ships that are BMD-capable. By 
the end of the current FYDP, we will have 27 ships that will be 
BMD-capable and available for tasking.
    The Navy's approach has been threefold. We've looked at it 
from the acquisition of BMD kits in order to make ships that 
are currently in the inventory capable of performing the BMD 
mission. The second approach we've taken is to build the BMD 
into the ships, from the keel up, which we have also put in the 
plan. But, the challenge there is, it takes us 5 years in order 
to go from the time we start the work until we deliver a ship. 
We have demand signal today that is out there that needs to be 
met in a quicker way. The third approach we are taking is, we 
are looking at what we call Aegis Ashore, in which we would put 
the BMD capability ashore. We are looking at beginning that in 
the 2015 timeframe.
    So, it's a three-pronged approach. We will go with kits, we 
will go with ships from the keel up, and we will go with a 
program we're calling Aegis Ashore.
    Senator LeMieux. Along that three-pronged program is the 
number of ships that we have and the number of ships that are 
in that effort sufficient, in your mind?
    Admiral Blake. It is currently sufficient to meet the COCOM 
demand signal. The challenge we are facing is the rotation as 
we put those units out there, because we have to put them on 
station for a certain period of time. We have missions on both 
the east coast and west coast of the United States, where we 
have to put ships out for both.
    In fact, one of the west coast units did the mission in the 
Mediterranean, the USS Higgins. She had actually been over 
there on the BMD mission, and then as she was on her way home, 
she responded to the Haiti event, in which they had the 
earthquake, and then she went back through the Canal and went 
home. So, we are able to move ships from both coasts.
    But, yes, the short answer to your question is, we believe 
we have the levels.
    Senator LeMieux. We're going to hear soon, I understand, 
about the announcement on the common hull for the 55-ship 
Littoral-class. Do you know when that announcement is due?
    Mr. Stackley. We received proposals in April. We are going 
through proposal evaluation. We have a series of internal 
reviews that will need to be conducted. We engage, as 
necessary, in discussions with the offerers. We're targeting a 
down-select decision this summer.
    Senator LeMieux. This summer.
    Mr. Stackley. Yes, sir.
    Senator LeMieux. We're scheduled to get those Littoral-
class ships at Mayport, in Jacksonville. At the same time, 
we're decommissioning the frigates. So, there's a concern, 
which I'm sure you are aware, that we're going to have a huge 
gap as those frigates come offline and Littoral ships come 
online. So, urgency in getting that done is important to my 
State.
    Mr. Stackley. Yes, sir.
    Senator LeMieux. Mr. Chairman, that's all I have.
    Senator Reed. Thank you very much, Senator LeMieux.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thank you.
    Despite the shortage of amphibious operational 
capabilities, the Navy continues to decommission the aging 
amphibious fleet in order to reduce the operation and 
maintenance (O&M) expenses. Admiral Blake, what are the Navy's 
plans to retire the vessels from the existing amphibious fleet 
within the next 10 years?
    Admiral Blake. When we developed the 30-year shipbuilding 
plan, we looked at two factors. The first was affordability; 
what we could afford. The second was a view toward the future; 
how we were going to be able to get capabilities out into the 
fleet.
    Specifically, the current large-deck amphibious ships, 
which we have in the budget for decommissioning, originally had 
service lives of 20 years. They were subsequently extended, and 
they are coming to the end of those service lives.
    What we have seen is that, as those ships come to the end 
of their service lives, we have had a challenge in order to 
keep on maintaining those vessels.
    Recognizing the affordability issues we had, it was 
determined that, in order to be able to provide a capability in 
the future for the amphibious force, we were going to have to 
look at decommissioning those ships as they are currently 
listed in the 5-year defense plan.
    So, the overall approach was, if we were to not 
decommission those ships, then we would have to pressurize both 
our manpower and our O&M accounts. If we were to do that, 
because those accounts would be pressurized, we would have to 
look into our other accounts in order to be able to cover that, 
because we have already reallocated the manpower and the O&M 
dollars in order to meet other emerging issues.
    I'll give you an example. Manpower that would come off 
those ships would then be reapplied to our increase in the 10th 
Fleet, the Cyber Fleet. It would also be used to meet 
additional COCOM demand from organizations such as U.S. Special 
Operations Command. We've gotten demand signals to put 
additional folks out there.
    What I would tell you is, while it was not easy to make 
that decision in order to be able to put those ships out within 
the current FYDP, we felt it prudent in order to be able to 
build the future force of the fleet, specifically on the NFP 
side, because if you pressurize both the manpower and O&M 
accounts, the only place we're able to go at that point is our 
procurement accounts. Our procurement accounts are made up, 
principally, of the aircraft and shipbuilding accounts.
    Senator Hagan. I think you said that the original life 
cycle was 20 years, but you've extended it?
    Admiral Blake. That's correct.
    Senator Hagan. To what?
    Admiral Blake. I'll have to take that one for the record. 
I'll get you the exact number on the years.
    [The information referred to follows:]

    The expected service life of the LHA 1 Class has been extended to 
35 years.

    Senator Hagan. Admiral Blake and General Flynn, if the 
requirement for amphibious capabilities is 38 ships, and the 
agreed level of acceptable risk dictates a need for 33 ships, 
will the Navy and Marine Corps have the ability to fully 
support the COCOM requirements, when, I believe, only 29 ships 
will be available in 2011?
    Admiral Blake. As I was stating earlier, it was a matter of 
affordability. If you look at the shipbuilding plan within the 
FYDP, you're absolutely correct. I believe in 2011, we get down 
to 29 ships, and then we build back up. It was an issue, from 
the Navy perspective, of affordability, risk, and getting that 
future capability out there in our procurement accounts.
    General Flynn. Senator, we agreed that the floor was 33 
ships. One of the key issues is, when we put the plan together, 
there were key assumptions and parameters about the 
availability of new ships.
    Cost is one thing, and I think we need to strike a balance 
between that and capability. When you get around 29 ships, you 
are challenged, not only in meeting your larger requirement, 
but you are challenged in meeting your day-to-day requirements. 
Since the plan was written, we continue with those 
decommissionings as an operational assessment of what that will 
mean to our capabilities, because some of the assumptions as to 
when new ships would come online may no longer be valid.
    Senator Hagan. The 2011-2015 shipbuilding plan calls for 
procuring the 11th and the final San Antonio-class landing 
platform dock amphibious ship in 2012. In 2017, the 30-year 
shipbuilding plan calls for the start of procurement of a 
replacement for aging landing ship dock amphibious ships. 
Secretary Stackley, can the LPD-17 design be used as the basis 
for the LSD replacement? Would the procurement of a 12th LPD-17 
in 2014 or 2015 support keeping the production line open while 
transitioning to the start of the LSD replacement?
    Mr. Stackley. Yes, ma'am. In general terms, the Navy would 
look for reuse of design and common hull forms to improve 
affordability of any new program.
    The timing for the LSD(X), as I mentioned in my opening 
remarks, is ahead of need. The LSD-41 and -49 class do not exit 
the service until the mid-2020s. We look at concerns with the 
industrial base. So, we have pulled that replacement program as 
early as we can without pushing some other requirement out 
that's more urgent, on a schedule basis. So, we have the LSD(X) 
just outside of the FYDP. This year and next year, we are going 
through the definition of the requirements to determine exactly 
what the lift fingerprint is that the replacement ship has to 
provide. Does that line up with an LPD-17 hull form? If it 
turns out that the LPD-17 has more capability than what the 
LSD(X) has, then we have to do the affordability and trades 
review to balance off, what's the cost of a new start versus 
the cost of reuse? Affordability, capability, requirements, and 
schedule are all going to be brought to the table in that 
review and that debate.
    Senator Hagan. Thank you. Let me go to one more.
    The Navy originally estimated the cost of building the LCS 
sea frames at approximately $220 million per vessel. I 
understand that Secretary Mabus has been a champion for 
acquisition reform; however, the current LCS sea-frame 
procurement costs have more than doubled. Will the Navy be 
awarding this as a fixed-price contract? What risk would the 
Navy face in the event that the winning shipyard is unable to 
build the first 10 of these ships within the contracted cost?
    Mr. Stackley. It is a fixed-price contract that's out for 
bid.
    Senator Hagan. For 10 ships?
    Mr. Stackley. Specifically, it's a fixed-price incentive 
contract. Two firm fiscal year 2010 ships, and then two-per-
year options in 2011 through 2014, for a total of 10 ships.
    There is a pricing portion as part of the review of the 
proposals, but there's also a technical portion. Inside of the 
technical portion, there's an evaluation of the bidder's 
ability to meet their proposal, in terms of management and 
production. So, we evaluate that exact issue prior to awarding 
to the winner.
    Senator Hagan. What happens when their costs come in over?
    Mr. Stackley. On the fixed-price contract, it's in 
accordance with the terms and conditions of the contract. So, 
they propose a target. We have what's referred to as a ceiling, 
where the ceiling limits the government's liability. Between 
the target that they propose and the ceiling, the cost is 
shared in accordance with what's referred to as a share line.
    Senator Hagan. I understand in the 1970s we had a serious 
situation where we had to do a substantial financial bailout. I 
was just curious we are looking into that when all these 
contracts with one bidder are signed.
    Mr. Stackley. There was a lot of learning that took place 
in the 1970s. Our intent is not to repeat that experience, 
which is why cost realism is an important part of the 
evaluation process. We do not award based on what they bid. We 
award based on evaluated cost.
    Senator Hagan. Thank you.
    Senator Reed. Thank you, Senator Hagan.
    Senator Sessions.
    Senator Sessions. Thank you.
    Thank all of you for your work.
    Secretary Stackley, we appreciate the difficult choices all 
of you face in the Navy, with budgets that show not much growth 
from the President for defense when we're increasing personnel 
in DOD. I believe, as Admiral Blake indicated, that puts 
pressure on procurement. That's just the way it's always been. 
But, sometimes, when we have good programs that need to be 
completed, it's unthinkable to not complete them in a sound 
way.
    Secretary Stackley, yesterday, Defense News reported that 
Secretary Mabus, the Navy Secretary, in his remarks to the Navy 
League on May 5, stated that, ``Energy efficiency, both in the 
manufacturing process and in the final product, would 
increasingly be a factor in judging program performance, as 
well as in the contract awards.''
    Earlier, he said, in October of last year at an energy 
forum, ``First, we're going to change the way the Navy and 
Marine Corps award contracts. The lifetime energy cost of a 
building or a system and the fully-burdened cost of fuel in 
powering those will be a mandatory evaluation factor used when 
awarding contracts. We're going to hold industry contractually 
accountable for meeting energy targets and system efficiency 
requirements.'' He goes on to emphasize that more.
    In September 2009, he said, ``One of the drivers, for me, 
is the affordability of being able to operate the force. We no 
longer have the luxury to say, `It's a good deal on price,' or, 
`Let's buy it.' We have to get our arms around lifecycle 
costs.''
    Do you agree that that's the right way to purchase a ship, 
or any vehicle, but a ship, particularly? That you want to know 
not only how much it costs today, but how much fuel it will use 
and how much it will cost to operate that? Is that a factor 
that should be given weight in the process?
    Mr. Stackley. Sir, the Secretary has outlined his goals for 
energy, and we are putting a lot of effort into not just 
meeting his goals, but building the path to get there.
    When we look at how we procure our ships, we bring total 
ownership cost into the equation, and we evaluate not just the 
procurement costs, but we look at the ownership costs 
throughout the life of the program, which includes energy, it 
includes manpower, it includes maintenance, and modernization 
considerations, in addition to the upfront procurement cost.
    Senator Sessions. I think you said that you agree with the 
Secretary. Is that right?
    Mr. Stackley. I would always agree with the Secretary, sir. 
[Laughter.]
    Senator Sessions. Especially when he's correct, as he is in 
that statement. But, I didn't hear you say, precisely, that you 
are at that level now. He said, ``First thing we're going to do 
is fix this energy matter.''
    So, I'm asking you, today, when you look at the LCS 
competition, is that effectively being evaluated in the bid 
process? It certainly seems that it should be.
    Mr. Stackley. We took a look at the larger category of 
ownership cost, we considered it as an evaluation factor, 
compared the two designs, and arrived at an evaluation inside 
the technical portion of the LCS award criteria that would 
address improvements to total ownership costs, which would 
include energy, as well as maintenance and modernization.
    Senator Sessions. The fact that that is a very long and 
complex answer makes me nervous, because my analysis of it is 
that it does not do just what the Secretary said.
    I would offer for the record, Mr. Chairman, a report from 
the CBO that's analyzed this particular question.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. The way I read the report, it's pretty 
clear to me that the Navy has not sufficiently calculated the 
comparative fuel costs of the two ships.
    That's what you mean by those words you gave us, doesn't 
it? You compare the cost of one ship, in its normal operating 
procedure, and you compare the cost of the other. Correct? Is 
that what you mean?
    Mr. Stackley. We look at total ownership cost, which 
includes all the factors, including energy. Yes, sir.
    Senator Sessions. Let's focus on the energy part of cost. 
Do you consider how much it costs to run one ship, and you 
consider the cost of the other one? That's what it means, does 
it not?
    Mr. Stackley. Yes, sir.
    Senator Sessions. Have you calculated and reduced to dollar 
amounts the estimated fuel cost of operating these ships, each 
one, through the life cycle?
    Mr. Stackley. We've looked at the different ways in which 
the Navy would operate the ship, because, clearly, fuel costs 
are dependent upon how you would operate the ship, and ran the 
respective analyses for the two different designs.
    Senator Sessions. I'm well aware of that, but it would be 
part of how you would calculate it. Have you calculated it 
through to dollar-and-cent figure so you can compare actual 
cost?
    Mr. Stackley. Yes, sir. In accordance with the different 
ways in which we would operate the ship inside the total----
    Senator Sessions. How much do you calculate LCS-1 and LCS-
2? What are the figures for each?
    Mr. Stackley. I would not provide those in an open forum, 
because the respective figures that we have used are 
proprietary. However, we have provided that information, 
through other means, to CBO in forming their report.
    Senator Sessions. As I read the CBO report, it would 
conclude the Navy inadequately scored that. But, do I hear you 
saying that you have an actual dollar-and-cents figure that 
you've used in evaluating the lifecycle cost that now the Navy 
has and is applying to this ship?
    Mr. Stackley. To be exact, we took a look at the total 
ownership costs for the two competing designs. We looked at 
maintenance, modernization, manpower, and fuel consumption.
    When we look at fuel consumption, we have to consider the 
different ways in which the Navy would operate the ship. Then 
we looked at the total ownership cost, side-by-side, for the 
two different designs, considering different categories for the 
way the Navy would operate----
    Senator Sessions. Surely, you would have to reduce this 
variable speed to some sort of factor that you could evaluate, 
in terms of dollars and cents. That's what CBO said.
    It's been done before, hasn't it?
    Mr. Stackley. Yes, sir. As you read through the CBO report, 
what they point out is, there's a range, in terms of the 
percent of the total ownership cost that's made up by fuel. 
There's also a range for how much of an impact the different 
mission type of operations have on that percent. Within that 
range, you could have one design being better than the other, 
and vice versa. So, the outcome of the analysis for total 
ownership cost is highly sensitive to the way that the Navy 
would operate the ships.
    Senator Sessions. I couldn't agree more. But, have you 
calculated that?
    Mr. Stackley. Yes, sir.
    Senator Sessions. You would agree, would you not, that if 
you didn't properly calculate that, then it could be unfair to 
one competitor or another?
    Mr. Stackley. What I would definitely agree to is that 
there's a degree of uncertainty around the estimates. When you 
say, ``not properly calculating it,'' I would say that the 
Navy's estimate is not so much of a point estimate as it is a 
number plus or minus a certain percentage of uncertainty. I 
would not suggest that we've been unfair to one or the other, 
based on that calculation.
    Senator Sessions. Mr. Stackley, I'm not able to follow 
those answers. It's awfully complex to me. It would seem to me 
that if you were buying an automobile, and one got better gas 
mileage than another one, you would calculate, over the 
expected life of that car, how much you spend on fuel in each 
one. Are you saying that you have done that in this case, in 
this competition, and that you are prepared, at some point, to 
make that public?
    Mr. Stackley. Two things. One, you say, ``within the 
competition.'' The analysis that you are referring to is not a 
part of the award criteria.
    Senator Sessions. Then are you going to make it a part of 
the award evaluation, or not?
    Mr. Stackley. No, sir. What we have as a part of the award 
criteria is how to improve upon total ownership cost. When we 
do the analysis of total ownership cost, which includes fuel, 
and we put side-by-side comparisons between the two designs, 
then the outcome of that analysis is entirely dependent on the 
assumptions you make with regards to how the Navy would operate 
the ship, where the range of operations is entirely within what 
the LCS would be called to perform.
    Senator Sessions. CBO, faced with those circumstances, came 
up with a range, did they not?
    Mr. Stackley. Yes, sir.
    Senator Sessions. The range was something like 8 to 18.
    Mr. Stackley. It was 8 to 11 percent for a frigate type of 
combatant, which would include an LCS.
    Senator Sessions. They estimated a moderate range would be 
11. That was their estimate of what the fuel cost should be. Do 
you use that figure, or a different one?
    Mr. Stackley. We used the baseline figures that we have for 
the two designs. The other information that CBO pointed towards 
was the operating regime of the ships, where they would 
nominally spend 95 percent of their time at 16 knots or less; 5 
percent of the time north of that speed. You have a range of 
variability of 5 percent inside of CBO's numbers, driven by the 
way you operate the ships, for a cost factor that's 11 percent 
of the total ownership cost.
    Senator Sessions. Thank you, Mr. Chairman.
    I would just say that this is a very serious matter. I'm 
not able to follow your answers. My concern is that you're not 
adequately accounting for differences of fuel. I intend to 
follow it. I hope that you conduct this correctly. But, if not, 
I think we would not have had a fair competition.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Sessions.
    We'll begin the second round.
    I want to commend Senator Wicker and my colleagues for 
raising the issue of Secretary Gates's speech. He really 
challenged us to look very closely at the cost of procurement 
systems. But, I want to make the further point that that 
doesn't just apply to shipbuilding; that applies across the 
spectrum: aircraft, ground systems, et cetera. We're in an age 
in which the operational environment includes the budget, and 
we have to be conscious of that. But, I thank you, Roger, for 
bringing it up.
    Senator Sessions. I join with you, Mr. Chairman, in sharing 
those comments and thanking Senator Wicker for his.
    Senator Reed. Thank you.
    Let me just raise a few questions, then turn it over to 
Senator Wicker.
    The Ohio-class replacement program is underway; the first 
steps. I think it's a very sensible program and that we have to 
follow through. But, Admiral Blake, in terms of what the Navy 
is doing, the tradeoffs, in terms of design, looking ahead at 
what this platform will look like, which will be reflected, 
first, in the R&D aspects and requests for funding, and then in 
procurement, how are you working to make this affordable, as 
well as effective?
    Admiral Blake. Sir, what we started out with was, we took 
the original Ohio program, which we did many years ago, and we 
used that as the model in order to determine where we were 
going to go with the Ohio replacement. So, we used that as the 
framework in order to determine when we thought we needed to 
start the R&D process, which started in the 2010 budget. Then, 
we went forward from there.
    The second piece we determined was, based on the service 
lives of the ship, when would we be required to bring the Ohio 
replacement into service? That was then determined to be 2019.
    What we did was a two-step process. We started with the R&D 
piece, upfront, and then we determined when construction had to 
start. Then you had the advanced procurement that you would 
have to put in place. That was the idea, so that the first Ohio 
replacement would arrive, and we would meet the requirement to 
meet the mission. That was the entire process, as we drove 
towards it.
    Senator Reed. I understand the timeline, let me rephrase 
the question.
    I think there's a temptation, when you're looking at a new 
platform, to make it capable of doing everything. That's 
expensive, typically. There's always this tradeoff between 
capability and expense. How are you dealing with those two 
issues?
    Admiral Blake. One of the ways we're looking at it is, 
we're looking to see, first of all, what capability you want to 
have in the vessel.
    Let me use the D5 program as an example. We determined 
that, based on the success of the D5 program, that we should 
take the D5 program and put an extension program in place so 
that we would be able to utilize that system and the 
reliability and security that it gave us out into the 2040 
timeframe. We also felt that if you go back in history and you 
look, you'll remember that the previous program, the C4 
program, was a less capable system. The D5 was then designed in 
the late 1970s, early 1980s.
    What we determined was, in order to minimize risk, we would 
go to the D5 program, as opposed to starting up, since we have 
not, since the early 1980s, done any missile design work, with 
respect to an SSBN weapon system. Therefore, we would continue 
down the path of using the D5.
    The idea was to keep it affordable because if you go back 
in history, if we hadn't gone down that path, then we were 
going to have to rebuild the infrastructure, the design, and 
everything else, because we have not done that in several 
decades. The idea was to make it affordable and to make it less 
risky. That's one example.
    Senator Reed. Thank you, Admiral.
    Mr. Stackley. Can I add to that?
    Senator Reed. Secretary Stackley, just your comments, 
briefly, on my questions. But, to the tradeoff between capacity 
and affordability. Is there a normative price in your head for 
per-ship, now? Or is it too early?
    Mr. Stackley. Yes, sir. First, we have done an analysis of 
alternatives leading into the R&D ramp for the Ohio 
replacement. We looked at a large number of variations on a 
couple of concepts, where you start with the Ohio itself, you 
take a look at what we've learned from Virginia, and you look 
at variations on the Virginia, and then what you have left, 
beyond that, is a clean-sheet design.
    We take a look at, what are the core requirements that the 
replacement boat needs to provide? Then we look at 
opportunities, either from the standpoint of affordability or 
capability.
    Right now, we are going through tough discussions on 
capabilities versus requirements versus cost, leading up to a 
milestone decision this summer with acquisition, technology, 
and logistics. This process is absolutely key for the next 
decade, because we are going to build the Ohio-class 
replacement, it is going to be a very expensive platform, and 
it is going to meet our national security requirements.
    Once we head down a certain path, we have to ensure it's 
the right path, because we won't get a restart opportunity and 
we won't have the ability to back out. So, we have to get it 
right, upfront.
    We're muscling through this now. We have estimates that are 
on the table, in terms of both the R&D stream and the 
procurement stream. If you look at the 30-year report, it's a 
$6- to $7-billion boat, and that's simply taking the Ohio and 
escalating it out to the 2019 timeframe, when we will procure 
the first replacement boat.
    That gives us great concern, because of the amount of 
pressure it puts on not just shipbuilding, but all procurement, 
as well as the R&D leading into it. We don't want to cut 
ourselves short on R&D, because we want to get it right. We 
need to look at both affordability and capability in this 
effort. But, we have to take a look at the total program and 
see what we can do to, not just keep it under control within 
the budget, but, when we get out there to execute, make sure it 
doesn't escape us.
    Senator Reed. Thank you very much, Mr. Secretary.
    Let me ask a question, then yield to Senator Wicker. I 
might have one more question.
    Going back to the decision about the DDG-51 versus the DDG-
1000, the DDG-1000 was developed with the principal mission of 
close fire support for forceful entry, principally, the Marine 
Corps. Then the Navy made a decision that they could do that by 
other means, and the more pressing need was missile defense, 
and the DDG-51 seemed to be more capable at that. Part of that 
decision, I understand, is the thought that the Navy could 
essentially adopt an Army system, the non-line-of-sight (NLOS) 
launch system.
    Now it appears that the Army is getting ready to abandon 
developing that system, forcing you to have no system, or to 
adopt the cost of that system, rather than bootstrapping on the 
Army.
    Admiral Blake, if NLOS is canceled, which it appears close 
to being, what's your backup plan? I'd like everyone to comment 
on this general topic. What are you going to do to ensure close 
fire support for forceful entry of marines?
    Admiral Blake. First of all, for the NLOS program, the NLOS 
was looked at, from the Navy perspective, to go on the LCS. It 
was going to be part of the surface modular package that was 
going to go on there. One of the missions it was going to be 
used for was for the swarming boat issue.
    What we are doing right now is, because of the Army's 
announcement that they are potentially looking at terminating 
the program, going back and evaluating for that particular 
module, if, in fact, that program is terminated, and it is 
decided that the Navy would not go down that path, what would 
we have to do in order to meet the key performance parameters 
for that particular module on the LCS?
    Senator Reed. Thank you. That clarifies the situation a 
great deal. Secretary Stackley, might the close fire support be 
provided, not by destroyer, but by the LCS? Is that the 
operational concept, Mr. Secretary?
    Mr. Stackley. No, sir. Naval surface fire support 
capability, or requirement, is met by what's referred to as a 
triad. First, there's organic artillery, there is air, and then 
there's naval surface fires. That triad is intended to meet the 
overarching, or capstone, requirement. We look at the 
contribution of the advanced gun system on the DDG-1000 to the 
overall requirement. We look at other surface ships--basically, 
5-inch/54, which is common to the DDG-51 and the cruiser. With 
the NLOS, we look at a capability that the LCS could further 
contribute to that campaign problem.
    Senator Reed. General Flynn, since your marines are going 
to have to make the forcible entry, you have the last word on 
the whole topic and NLOS, too.
    General Flynn. Sir, over a year ago--and this was at the 
same time that we were looking at the DDG-1000 program--we 
agreed to look to a joint analysis of alternatives (AOA), to 
determine a way ahead for naval surface fires. A key part of 
that, as Secretary Stackley said, is our belief in the triad 
that no single leg of the triad can meet all the demands of it. 
We see naval surface fires as providing both volume and 
accuracy as a key part of that triad.
    As part of the joint AOA, we looked at 71 alternatives, and 
we came down to the 6 most promising. One of them was the NLOS 
system. If it proved promising, it would have to have an 
extended range. But, that was one of the alternatives. That was 
one of the areas that we were also looking at to capitalize on 
the Navy's building of the LCS platform.
    If NLOS proves not to be effective, then the only other 
option that's available right now is the development of a 5-
inch extended-range round for use off the DDG-81 and higher-
class hull forms. That really needs to be a POM-12 issue, 
because right now there is no naval surface fire, with the 
exception of the DDG-1000, in the program or record. The next 
promising thing to look at, or the most viable, appears to be 
the extended range 5-inch. That would meet the requirement.
    Senator Reed. Thank you very much, General.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    General Flynn, with regard to this decommissioning of the 
LHA-4 in 2011 and LHA-5 in 2013, in advance of their expected 
service life, is it your understanding that that decision is 
still an open question? Let me put it is way. In your view, is 
there still an opportunity for that decision to be reversed?
    General Flynn. Sir, the way I'd answer that is, I believe 
that it's important that we have to balance what was in the 30-
year shipbuilding plan. Has anything changed since the 30-year 
shipbuilding plan that would warrant going back and taking a 
look at that decommissioning of vessels? The key thing, I 
think, that needs to be done is, what is the operational 
impact, based on what was assumed or what was counted on in the 
plan? Has anything changed? If nothing's changed, and 
deliveries will be met, and capabilities will be there, I don't 
think that's a reversible decision.
    But, the reality is that it's not just the funding 
requirements. Maybe in the current budget year we're across the 
line of departure. But, in the future budget year, I do think 
we need to take a look at the delivery of new ships and when 
they're going to be operational-ready, because there was an 
assumption made in the plan that those ships would be ready and 
deployable at a certain period of time.
    We've had some challenges with the delivery of the new 
class of LPDs. It all comes together, when you take a look at 
the lift-carrying capacity of the fleet to do that. So, I'd be 
an advocate for an operational assessment, to see what impact 
that would have.
    Senator Wicker. Okay. Where are we then, in the decision 
about making an operational assessment? How involved would such 
an assessment be?
    General Flynn. Sir, I think that how involved that 
assessment would be is to take a look at what demands you have 
for day-to-day operations and to see if the inventory can meet 
those demands.
    Senator Wicker. Is it fair to say the Marine Corps was 
opposed to these two decommissionings?
    General Flynn. Sir, I think it'd be fair to say that the 
Marine Corps would like to see an operational assessment of the 
impact of those decommissions.
    Senator Wicker. Where are we on that, Mr. Secretary?
    Mr. Stackley. Let me describe that the decommissioning plan 
that you see in the report to Congress, that pulls the LHA-4 
and -5 out, that was done in concert with the PB11 budget build 
and QDR. In terms of an operational assessment for changes, 
since that was put together, I'm not aware of one.
    Senator Wicker. Would you be vigorously opposed to such an 
idea?
    Mr. Stackley. I think we should always be reassessing our 
plans, based on changes that have occurred since the prior plan 
was built. I think it's our responsibility to be constantly 
reviewing changes.
    Senator Wicker. It would be possible to decommission the 
first one and make a different determination, with regard to 
the LHA-5, wouldn't it?
    Mr. Stackley. It's not supposed to occur until 2013.
    Mr. Stackley. General Flynn talked about passing a line of 
departure on the LHA-4. I think we have passed the line of 
departure, because you're talking about manpower that simply is 
not in the budget for a big-deck amphibious. So, that one, I 
believe, is passed.
    Senator Wicker. We've not passed the line of departure for 
the LHA-5. Is that correct?
    Mr. Stackley. The manpower accounts have been adjusted to 
assume decommissioning of the LHA-5 in 2013. That's inside of 
the FYDP. To change that plan, you'd have to change those 
manpower assumptions in POM-12, and that would have its 
attendant impact.
    Senator Wicker. But, we've not passed the line of 
departure, have we?
    Mr. Stackley. No, sir. That's a 2013 budget impact 
associated with, not just manpower, but also O&M associated 
with maintaining the ship past its current decommissioning 
date.
    Admiral Blake. Sir, I would add one point to that.
    Senator Wicker. Please.
    Admiral Blake. If you look at the entire number of ships 
that are being decommissioned, when you decommission those 
large-deck amphibs, they are not being either scrapped or put 
for foreign military sale, they're being put in an inactive 
status. So, should a national emergency require them being 
brought back out into the active fleet, that, of course, could 
be accomplished.
    The second thing I would point out, as Mr. Stackley pointed 
out, was that if you were to pressurize the accounts and in 
order to bring those ships back in, specifically with respect 
to manpower and the O&M accounts, we would likely have to go, 
in order to find the offsets to cover those costs, in our 
procurement accounts.
    Senator Wicker. Thank you. That was helpful.
    General Flynn, how do we arrive at the 38 number on 
amphibious ships to really meet our needs? What risks do we 
take when we go down to 31 or fewer?
    General Flynn. Sir, to give you an idea, the 38-ship 
requirement was based on what would it take to be able to 
conduct an amphibious assault with a 2-brigade-sized force, 
with each brigade needing 17 ships in the assault echelon. So, 
that gives you a total of 34, with 4 somewhere in the 
maintenance cycle.
    That number pretty much would support the steady-state 
demand for day-to-day operations that we see from the COCOMs.
    To give you an example of the utility of 31 ships, over 70 
percent of the amphibious fleet at the end of January, during 
the Haiti operation, was at sea. So, that gives you an idea of 
the utility of the ships. As you get lower, for example, if you 
did the same thing with 29 ships, 80 percent of the amphibious 
fleet would be at sea, because we had 9 ships supporting 3 
different expeditionary units, and you had 7 ships off the 
coast of Haiti, with 9 in maintenance and 6 others available 
for deployment. So, that gives you an idea of the utility of 
the ships, as well as their use.
    Senator Wicker. For accomplishing your mission, any drop 
between 31 would be an unacceptable risk. Is that correct?
    General Flynn. Sir, I believe, from some of the operational 
analysis that I've seen, we'd be challenged to meet some of our 
presence requirements.
    Senator Wicker. All right.
    I think people would be disappointed if I didn't talk about 
the well deck issue. Mr. Secretary, we had a lengthy discussion 
last year. The idea of inserting well deck back in the LHA-7 
has seemingly been put to rest. Is that correct?
    Mr. Stackley. Yes, sir.
    Senator Wicker. I'm interested in the way ahead. I'll tell 
you, it's wonderful to have such access to General Conway and 
Admiral Roughead on a one-to-one basis. There seems to be an 
interest in adding the well deck back for future ships because 
of the increased weight of the equipment now.
    General Flynn, do you support putting well deck back in for 
future LHAs?
    Secretary Stackley, is the Navy considering adding a well 
deck back to the follow-on to the LHA-7?
    General?
    General Flynn. Sir, a couple of points on that. When the 
LHAs were first designed without the well deck, they were part 
of a larger program. MPF(F) was still one of the 
considerations. When thinking about the requirement for 
amphibious ships, we also had to take into account what the 
program was at the time when that was first laid in.
    Without the well deck, MPF(F) was also a viable program. 
That is no longer affordable, and we've made some adjustments 
there. In order to keep with the number of amphibious ships 
that we're likely to see in the future, it's important that you 
have as much flexibility as you can in the ship designs. That 
is why we've been working with the Navy and with Mr. Stackley 
to take a look at the feasibility of adding the well deck back 
into the ship that is currently programmed for fiscal year 
2016.
    Senator Wicker. Okay. We're looking at the feasibility. Do 
you advocate that, at this point?
    General Flynn. Yes, sir. We believe that we do need the 
well deck back in to provide the flexibility, not just because 
of the added weight of some of the equipment, but also for the 
utility of the ship. The size of the fleet is not going to get 
any bigger than 33, for sure, in the immediate future. So, the 
more flexibility you can have in the ships that you have, the 
better off you're going to be.
    Senator Wicker. How close are we to a decision in that 
regard?
    General Flynn. Sir, it's a POM-12 issue that we're working 
through right now, as to which design would be the most 
feasible.
    Admiral Blake. Sir, we had Navy and Marine Corps warfighter 
talks earlier in the year. As a result of those talks, it was 
determined that we would look at the feasibility of the well 
deck in the 2016 ship.
    Senator Wicker. Fiscal year 2016?
    Admiral Blake. Yes, sir. The fiscal year 2016 ship. That is 
the current discussion that is going on between the Navy and 
the Marine Corps.
    Senator Wicker. Mr. Secretary, do you have anything to add?
    Mr. Stackley. Just to cap it off. As we talked about last 
year, the discussion emerged, before last year's hearing, 
regarding the well deck; and the timing, in order to try to 
insert a well deck for a fiscal year 2011 ship, it just was not 
feasible, either in terms of cost or schedule.
    What we have been doing in the meantime is taking a look at 
alternative approaches to getting back to a well deck big deck 
for the next LHA, LHA-8, which is a 2016 ship. We're looking at 
a mod-repeat to the LHD-8. We're looking at a LHA-6-based 
design with a well deck. Then we're looking at something a bit 
beyond that that provides a hybrid of capability between the 
LHA without a well deck and the well deck itself.
    So, we are active right now, looking at those types of 
alternatives, so that when we come forward with POM-12, we have 
both a baseline and a design approach, leading to a fiscal year 
2016 procurement.
    Senator Wicker. I think that will wrap it up for me, Mr. 
Chairman.
    Senator Reed. Thank you very much, Senator Wicker.
    I have one question on the EFV. The Commandant has made 
this the centerpiece of his forcible-entry strategy. But, it 
seems, with the procurement rate being so low, this vehicle 
would only be available at the full operational capability in 
2025, with about 573 vehicles.
    Mr. Secretary and General Flynn, can you comment on the 
role of the EFV and its importance? If it is important, how 
does this production rate match the importance?
    I don't know who wants to go first.
    Mr. Stackley. I'll have General Flynn address the role and 
I'll talk about the procurement approach.
    General Flynn. Senator, on the EFV, it's part of a larger 
ground tactical vehicle strategy; it's just one piece of that. 
The role that it performs is the ability to get us quickly 
ashore, to be able to use the sea as maneuver space, but, at 
the other time, it's designed to be a fighting vehicle onshore. 
So, it performs multiple roles.
    It has been sized to what we believe is the minimum 
requirement, which is a two-brigade-size assault.
    The key part of the program right now is, in accordance 
with the program restructure, the seven test vehicles are being 
delivered, starting last week. We're going to go through the 
test phase so that we can make a final decision on the 
viability of the program after we see how the seven test 
vehicles perform.
    Senator Reed. So, you're reserving judgment.
    General Flynn. I think a key part of the restructuring of 
the program was the delivery of the seven test vehicles, and 
then to see how those test vehicles met the restructured 
knowledge points, to see how they perform.
    Senator Reed. We want them to succeed. But, if they fail, 
then you're on to a new delivery system.
    General Flynn. If they don't meet their knowledge point, 
sir, then we're not going to stick with the program. They have 
to meet their performance parameters at each of the knowledge 
points.
    Senator Reed. Mr. Secretary, your comments.
    Mr. Stackley. Yes, sir. The only thing to add is the 
history on the program. It did see cost growth early, and it 
also saw a significant reduction in the quantity that was 
planned for procurement by the Marine Corps; we proceeded with 
development and ran into some problems with testing and 
reliability, it hit a Nunn-McCurdy wall and was restructured. 
That was about 2 years ago.
    Since the restructuring, the focus has been on, let's get 
the development right, so that we have a good firm baseline for 
production, recognizing that the out-year procurement rates are 
not optimal. So, you hit on it, that when you procure it at a 
lower rate, you're going to drive some cost, and you also delay 
when you get your full operational capability.
    We have not made any adjustments to the out-year 
procurement in that regard. However, procurement was delayed a 
year on the front end, so we can get greater assurance that we 
have it right in the development. The program office and 
industry have been working, and doing a pretty credible job, in 
terms of at least giving the design and proofing the 
components. We're just now taking delivery of the test 
vehicles, where we can actually get into some substantive data 
to back up the analysis, to give us greater confidence.
    Senator Reed. This is a somewhat unrelated question, but it 
goes to the current operational tempo of all of the forces. How 
often are you exercising forcible entries within the Marine 
Corps today, General Flynn?
    General Flynn. Sir, I wouldn't say it's, ``how often do you 
exercise forcible entry?'' I'd say it's, ``how often do you 
exercise sea-based operations?''
    Senator Reed. Right.
    General Flynn. I would say that we're doing it quite often.
    Senator Reed. Okay.
    General Flynn. There was the Haiti operation. We put two 
expeditionary units down there, plus an additional ship; the 
noncombat evacuation from Lebanon; scores of partnership 
engagements that take place around the globe throughout the 
year; the humanitarian relief that occurred last year with the 
expeditionary unit on its way to the Gulf; and other sea-based 
operations in the Central Command areas of operation. So, there 
are quite a lot of operations that are ongoing from the sea 
right now.
    Senator Reed. I recognize that.
    But, it just strikes me that this is a cost to our land 
forces who are engaged in Afghanistan and Iraq, that some of 
the skills that they would need for non-counterinsurgency are 
not being exercised a lot. You're right, going to Haiti, moving 
marines across the beach is good. But, it's not the same thing 
as simulating a forcible entry with air support and live fire, 
et cetera. Is that done as much as it should be done?
    General Flynn. No, sir. That's one of the guidances we got 
from the Commandant, to start doing that. What you're going to 
see this year is an amphibious exercise done out at Camp 
Pendleton this summer. This fall, you're going to see exercise 
Bald Alligator done on the East Coast in Camp Lejeune.
    Senator Reed. With the 82nd Airborne?
    General Flynn. Sir, I think they might be doing something 
else.
    Senator Reed. I'm addressing that to the former Deputy 
Commander of the 18th Airborne Corps.
    General Flynn. Right.
    Senator Reed. So, he keeps up with these airborne units.
    General Flynn. Whenever we can bring in the other corps 
into the Marine Corps, we will.
    Senator Reed. Right.
    Thank you, gentlemen, not only for this excellent 
testimony, but for your service to the Navy, to the Marine 
Corps, and to the Nation. Thank you very much.
    We will take any additional comments or statements my 
colleagues would like to submit for the record in the next 
several days. There may be questions addressed to you by 
members who were here or not here. I would ask you to respond 
promptly back to the committee.
    If there's no other information, then the hearing is 
adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jim Webb
                       navy surface fire support
    1. Senator Webb. Secretary Stackley and Admiral Blake, how is the 
Navy addressing its requirements for surface naval fires?
    Secretary Stackley and Admiral Blake. As discussed in the fiscal 
year 2010 Naval Surface Fire Support (NSFS) Report to Congress, NSFS is 
one leg of a fires triad which also includes fires delivered by 
tactical aircraft and ground systems. The relative contribution of each 
leg of the triad varies with the tactical scenario. The Navy has 
invested in an array of capabilities to strengthen the fires triad 
including advanced networking capabilities, unmanned airborne systems, 
ships and ship-based systems, and tactical aircraft precision delivered 
munitions.
Advanced Networking Capabilities
        <bullet> Naval Fire Control System (NFCS) is a shipboard naval 
        fires planning and coordination system designed to automate all 
        shipboard fire support battle management duties. It provides an 
        interface to the Advanced Field Artillery Tactical Data System 
        (AFATDS), the gun weapon system, and forward entry devices. 
        NFCS is installed in DDG-51 class ships hull number 81-108 and 
        will be installed in all future DDG-51 class destroyers.
        <bullet> Supporting Arms Coordination Center (Automated) is 
        installed on all LHAs and LHDs. It provides an integrated 
        capability to conduct fire support planning, coordination, and 
        execution of all supporting arms fires--including NSFS, 
        tactical aviation, and ground artillery and mortars ashore. 
        This system is capable of integrating multi-service command and 
        control systems aboard ship, including AFATDS and NFCS, to 
        provide maximum situational awareness and a common operating 
        picture.
Unmanned Airborne Systems
        <bullet> The fielding and wider use of unmanned systems such as 
        Predator, Global Hawk, Scan Eagle, and other systems provide a 
        range of capabilities and endurance options. Increasingly, 
        ground spotters are using these systems to improve their 
        targeting.
Ships and Ship-Based Systems
        <bullet> Counter Fire Radar. The ability to rapidly detect and 
        engage enemy indirect fire decreases friendly casualties. The 
        radar system on DDG-1000 will provide an expanded capability to 
        provide sea-based counter fire in the littoral.
        <bullet> Tactical Tomahawk provides a precision, all weather, 
        deep land attack capability. Today, Tactical Tomahawk is 
        fielded on all vertical launching system-equipped cruisers and 
        destroyers. A version of Tactical Tomahawk Weapon Control 
        System will also be fielded on DDG-1000 platforms and new 
        construction DDG-51s. Various fleet exercises and operational 
        test launches have demonstrated Tactical Tomahawk's utility and 
        effectiveness in the NSFS role, including the ability for a 
        ground spotter to derive Tomahawk quality targeting in the 
        field and the capability to in-flight redirect Tomahawk to the 
        new field-generated target.
        <bullet> Five inch/62 guns for DDG-51 destroyers. The MK 45 Mod 
        4, 5 in/62 gun was introduced into the fleet in 2001 aboard USS 
        Winston Churchill (DDG-81) and has since been installed on all 
        new construction destroyers.
        <bullet> DDG-1000 destroyers with 155mm advanced gun systems 
        and long-range land attack projectiles. The DDG-1000 program of 
        record consists of three ships. Its primary mission is to 
        provide sustained precision and volume fires at long ranges to 
        support distributed joint and coalition forces ashore and to 
        conduct independent attacks against land targets.
        <bullet> The electromagnetic rail gun is a promising technology 
        that may become a key future naval land attack weapon. It uses 
        electricity to launch projectiles at Mach 7, potentially 
        propelling them up to 250 miles in about 6 minutes.
Tactical Aircraft Precision Delivered Munitions
        <bullet> Over the past 20 years, the ability of Navy and Marine 
        Corps tactical aviation to prosecute targets ashore has 
        increased significantly. Current investments in additional 
        capabilities include:

                <bullet>  Joint Air-to-Ground Missile (JAGM)
                <bullet>  Small Diameter Bomb Increment II (SDB II)
                <bullet>  Low Collateral Damage Bomb (LCDB)
                <bullet>  Direct Attack Moving Target Capability 
                (DAMTC)
                <bullet>  Advanced Precision Kill Weapon System (APKWS)
                <bullet>  Harvest Hawk Airborne Weapon Mission Kit

    All of these systems contribute to the fires triad and work 
together to provide effective fire support from the sea in support of 
troops ashore.

    2. Senator Webb. Secretary Stackley and Admiral Blake, the NSFS 
requirement was to be addressed, in part, by the DDG-1000, but now that 
there are only three ships being procured, what capabilities have been 
identified to meet NSFS needs, and what is the anticipated timeline for 
testing and fielding such capabilities?
    Secretary Stackley and Admiral Blake. Analysis shows that when 
considering all Department of the Navy investments--including NSFS, 
tactical aircraft, and strike missiles--the Navy-Marine Corps team can 
provide sufficient fires from the sea to cover all anticipated 
scenarios. Additional future capabilities being procured include:

        <bullet> Low Collateral Damage Bomb (LCDB) - currently in 
        production
        <bullet> Direct Attack Moving Target Capability (DAMTC) - IOC 
        2010
        <bullet> Advanced Precision Kill Weapon System (APKWS) - IOC 
        2011
        <bullet> Harvest Hawk Airborne Weapon Mission Kit - IOC 2011
        <bullet> Advanced Gun System (DDG-1000) - IOC 2015
        <bullet> Long Range Land Attack Projectile (LRLAP) - IOC 2015
        <bullet> Joint Air-to-Ground Missile (JAGM) - IOC 2016
        <bullet> Small Diameter Bomb Increment II (SDB II) - IOC 2016

    3. Senator Webb. Secretary Stackley and Admiral Blake, is the Navy 
assessing modular systems that could be deployed on a Littoral Combat 
Ship (LCS) to help satisfy Marine Corps requirements for surface fire 
support?
    Secretary Stackley and Admiral Blake. LCS is being built to cover 
Joint Requirements Oversight Council (JROC) validated warfighting gaps 
in littoral anti-submarine warfare, surface warfare, and counter-mine 
operations. The 2009 NSFS Analysis of Alternatives (AoA) examined the 
possibility of a modular fire support system for LCS. However, there is 
no requirement for LCS to conduct the NSFS mission, as the current 
complement of surface and air weapons is capable of delivering 
sufficient supporting fires ashore to meet NSFS requirements.

    4. Senator Webb. Secretary Stackley and Admiral Blake, what is the 
status of the AoA for Joint Fires Capabilities?
    Secretary Stackley and Admiral Blake. The NSFS AoA is complete and 
has been submitted to the Secretary of the Navy.

    5. Senator Webb. Secretary Stackley and Admiral Blake, has the 
Marine Corps been consulted in determining what programs should be 
funded/supported and how soon they need to begin testing?
    Secretary Stackley. The Marine Corps was an active partner in the 
NSFS AoA and in developing the fiscal year 2010 NSFS Report to 
Congress. Additionally, the Marine Corps is an active participant in 
developing the Department of the Navy's annual Program Objective 
Memorandum (POM) submission.

                   marine corps surface fire support
    6. Senator Webb. General Flynn, what are the Marine Corps' specific 
needs regarding naval fire support?
    General Flynn. Accurate, timely, lethal, persistent, all-weather, 
long-range fires from U.S. Navy surface ships are essential for naval 
littoral operations. The Marine Corps requires naval surface fires that 
range 41 nautical miles, accounting for the over the horizon (OTH) 
distance of 25 nautical miles plus 16 nautical miles of coverage 
afforded by organic, ground-based indirect fire systems once ashore. 
Large area targets and targets classified as suppression targets may 
require that constant pressure be maintained for an extended period of 
time during joint forcible entry operations. The tactical assignment of 
direct support and the anticipated fire mission requirements are often 
responsive and defensive in nature. Direct support assignment speeds 
response and simplifies command and control through decentralization in 
ways not generally available with air support. NSFS would provide this 
capability until land-based indirect fire assets are ashore.

    7. Senator Webb. General Flynn, what is the Marine Corps' portion 
of the NSFS requirement, and how has the reduction in DDG-1000 
procurement affected this requirement?
    General Flynn. DDG-1000 platforms will provide the sole long-range 
NSFS ashore during joint forcible entry operations; reductions in 
program scope limit the Navy's ability to fulfill this important 
tactical mission. As identified in papers from the Deputy Commandant 
for Combat Development and Integration (DC, CD&I), the Marine Corps 
requires a range of 41 nautical miles for NSFS. This distance will 
provide the OTH range of 25 nautical miles plus 16 nautical miles of 
coverage, replicating organic ground-based indirect fire systems. With 
only three DDG-1000s being produced, and all three being stationed on 
the west coast, the Navy may be limited in its ability to react to 
multiple LCO engagements simultaneously, or provide fires to all 
battalions ashore during an MCO. Additionally, if there is not a DDG-
1000 on station when needed, the Navy would be unable to continuously 
meet the Marine Corps' 41 nautical mile range, volume, and 
responsiveness requirements for NSFS. With normal Navy deployment and 
maintenance cycles, the triad of fires may be degraded to the point 
that the ground commander will not always have adequate fire support 
available when and where he needs it. The Navy's NDAA Section 125 
Shipbuilding Acquisition Strategy is asking for an increase in DDG-51s. 
While the DDG-1000 and its Advanced Gun System are critical elements 
needed to close the NSFS gap, the Arleigh Burke class destroyers, 
outfitted with the MK-45 Mod 4 5-inch/62 gun mount, have the potential 
to provide accurate and lethal fires at extended ranges when firing 
extended range munitions. This solution was one of the top performing 
alternatives in the NSFS AoA, and could augment the production of the 
DDG-1000s.

    8. Senator Webb. General Flynn, what alternative capabilities are 
being pursued?
    General Flynn. The Marine Corps concurred with the results of the 
draft NSFS AoA which identified several promising near-term NSFS 
technology options, to include the complementary development of an 
extended range 5-inch guided projectile and extended range precision 
attack missiles. These enhancements would augment the 155mm advanced 
gun system (AGS) and long-range land attack projectiles (LRLAP) of the 
DDG-1000 program, and help fulfill the Marine Corps 41 nautical mile 
range, volume, and responsiveness requirements for NSFS. The Marine 
Corps also endorses continued technology development of the 
electromagnetic rail gun (EMRG) as a future NSFS capability.

    9. Senator Webb. General Flynn, how is the Marine Corps working 
with the Navy to develop NSFS capabilities?
    General Flynn. Through the Naval Surface Fires Support AoA, the 
Marine Corps provided subject matter expert input for its NSFS 
requirements. The outcome of the draft analysis weighed the range, 
volume, and responsiveness requirements of the Marine Corps before the 
final alternatives were selected for recommendation. We have also 
provided input to the Navy regarding the future development of the 
advanced gun system and long-range land attack projectile.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                              shipbuilding
    10. Senator Vitter. Secretary Stackley, I'm very concerned about 
the impact of the shipbuilding budget on the shipbuilding industrial 
base, and in particular, the effect on the Avondale shipyard in 
Louisiana. With statements from the Department of Defense (DOD) that 
future shipbuilding funding will at least be stagnant if not reduced, I 
would like the Navy to really focus on that impact on jobs and the 
industrial base as well as our Armed Forces. When can we expect to see 
the Shipbuilding Industrial Base Study?
    Secretary Stackley. The Assistant Secretary of the Navy (Research, 
Development, and Acquisition) has chartered an independent entity to 
develop and provide a publicly available, comprehensive, and 
independent assessment of the Navy shipbuilding industrial base. The 
shipbuilding assessment aims to produce a publicly available report at 
the time the fiscal year 2012 budget and the fiscal year 2012-2016 FYDP 
are submitted to Congress, expected to be early February 2011.

    11. Senator Vitter. Secretary Stackley, when the Navy examines the 
capabilities and capacities as well as the health of the base, will 
that cause the Navy to make significant changes, such as moving ships 
to the left in order to support the industrial base?
    Secretary Stackley. The fiscal year 2011 President's budget request 
represents the best balance of resources, requirements, and industrial 
base. The Navy's 30-year shipbuilding plan submitted with the fiscal 
year 2011 budget request takes into account the importance of level 
loading of ship procurement to help sustain minimum employment levels 
and skill retention in order to promote a healthy U.S. shipbuilding 
industrial base.

    12. Senator Vitter. Secretary Stackley, if the study finds that the 
budget is not enough to support a robust industrial base or sustain the 
existing base, what would you recommend for the existing shipyards that 
may not have enough work because of the budget?
    Secretary Stackley. The Navy's Long Range Plan for Ship 
Construction Report to Congress submitted with the fiscal year 2011 
President's budget plan balances needs against expected resources, and 
assesses the risks associated with DOD's balancing efforts. Further, 
the plan aims to maintain the shipbuilding design and industrial base 
necessary to build and sustain tomorrow's Navy, while providing 
opportunities for the industrial base to compete for future 
shipbuilding contracts. Ultimately, the Navy working with industry must 
stem the trends in cost growth in order to achieve our shipbuilding 
objective within projected budgets, and this will require increased 
efficiencies in the way we design, build, and buy our ships. 
Accordingly, to sustain their business base of Navy shipbuilding, U.S. 
shipyards must continue to strive for efficiencies to improve their 
competitive posture.
    To this end, the Navy fosters programs such as the National 
Shipbuilding Research Program and the Manufacturing Technology 
(ManTech) Program that provide recommendations on facility improvements 
and efficiency efforts. The Industrial Base Innovation Fund, in its 
third year, is administered by ManTech and has been funded through 
congressional plus-ups to the President's defense budget. Further, U.S. 
shipyards can promote future growth by pursuing expansion of its 
commercial shipbuilding base through a Shipbuilding Capability 
Preservation Agreement application to the Secretary of the Navy.

    13. Senator Vitter. Secretary Stackley, do you think the current 
shipbuilding budget is enough to sustain the shipbuilding workforce?
    Secretary Stackley. The Navy's shipbuilding plan, in many 
instances, reflects recapitalizations based on projected ship 
retirements. The plan also includes competition opportunities for the 
shipbuilding industrial base. The Navy continues to work with the 
shipbuilding industry to reduce the cost of our platforms which may 
allow additional recapitalization.

    14. Senator Vitter. Secretary Stackley, Secretary of Defense Gates 
said this week that ``I do not foresee any significant top-line 
increases in the shipbuilding budget beyond current assumptions.'' Do 
you agree with Secretary Gates that the Navy should make no plans for 
increasing the shipbuilding budget?
    Secretary Stackley. The Navy's Long Range Plan for ship 
construction Report to Congress submitted with the fiscal year 2011 
President's budget request outlines the shipbuilding top line 
assumptions for the next 30 years. In this report, the Navy provides 
the plan for ship procurement to meet force structure requirements 
based on an average of $15.9 billion per year shipbuilding budget 
(constant dollar fiscal year 2010), which represents an approximate 20 
percent increase in shipbuilding compared to the past decade.
    While the average shipbuilding budget has remained steady over the 
last few years, a significant change in the fiscal year 2011 report is 
the inclusion of the ballistic missile submarine recapitalization from 
within Navy's anticipated total obligation authority. During the years 
in which the new submarine is being procured, the Navy's shipbuilding 
plan projects an increase in the shipbuilding budget to approximately 
$18 billion per year (approximately 45 percent increase relative to the 
past decade). The risks and challenges associated with projecting this 
level increase in shipbuilding budgets in the outyears are self-evident 
and therefore we are assessing impacts and alternatives to ensure the 
future force and industrial base that will support it are best postured 
to meet the national maritime requirement. The Navy has looked more 
closely at where it would be willing to assume risk for the future and 
not procure those ships which are not absolutely necessary in executing 
the missions for which the Navy is solely responsible. In completing 
this review, the Navy has balanced the anticipated risk in the period 
with the uncertainties of the future to achieve the best balance of 
missions, resources, and requirements possible.
    The Navy recognizes that topline increases to the shipbuilding 
budget above this amount are unlikely. Therefore, the Navy will 
continue to drive for affordability initiatives into our shipbuilding 
programs while prioritizing our ship construction budget to best meet 
our warfighting requirements.

    15. Senator Vitter. Secretary Stackley, for the LCS, do you believe 
the competition is on track and when do you expect to finalize the 
process and select the final design?
    Secretary Stackley. The fiscal year 2010 LCS competition is on 
track. Proposals from the competitors were received on April 12, 2010. 
The Navy is evaluating these proposals and anticipates awarding a 
contract in summer 2010.

    [Whereupon, at 4:34 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
